APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
No. 17-16980
_________
LOUIS TAYLOR, a single man,
Plaintiff-Appellee,
v.
COUNTY OF PIMA, a body politic; CITY OF TUCSON,
a body politic,
Defendants-Appellants.
_________
D.C. No. 4:15-cv-00152-RM
_________
Appeal from the United States District Court
for the District of Arizona
Rosemary Márquez, District Judge, Presiding
Argued and Submitted August 15, 2018
San Francisco, California
Filed January 17, 2019
Before: Mary M. Schroeder, Eugene E. Siler,*
and Susan P. Graber, Circuit Judges.
Opinion by Judge Graber;
*

The Honorable Eugene E. Siler, Circuit Judge for the United
States Court of Appeals for the Sixth Circuit, sitting by
designation.

2a
Concurrence by Judge Graber;
Dissent by Judge Schroeder
_________
OPINION
GRABER, Circuit Judge:
In 1972, a jury convicted Louis Taylor in Arizona
state court of 28 counts of felony murder, on the
theory that he had started a deadly fire at a Tucson
hotel. In 2012, while still in prison, Taylor filed a
state post-conviction petition advancing newly
discovered evidence: an expert, using new and more
sophisticated investigative techniques, determined
that arson did not cause the hotel fire. The
government disputed Taylor’s new theory but
nevertheless agreed to the following procedure. The
government and Taylor entered into a plea
agreement in 2013 under which the original
convictions were vacated and, in their place, Taylor
pleaded no contest to the same counts, was
resentenced to time served, and was released from
prison.
Taylor then sued Pima County and the City of
Tucson in state court, under 42 U.S.C. § 1983,
alleging violations of his constitutional rights to due
process and a fair trial. With respect to the County,
Taylor alleged unconstitutional practices, policies,
and customs regarding criminal prosecutions,
including racially motivated prosecutions of AfricanAmericans and a failure to train and supervise
deputy prosecutors. The City removed the case to
federal court, and the County consented to removal.

3a
The County then moved to dismiss Taylor’s
operative complaint. Two of the County’s arguments
are relevant on appeal. First, the County argued that
the relevant government officials acted on behalf of
the State, not the County; the County asserted that,
accordingly, it was entitled to “Eleventh Amendment
immunity.” Second, the County argued that, because
all of Taylor’s time in prison was supported by the
valid 2013 criminal judgment, Taylor could not
recover damages for wrongful incarceration.
The district court granted in part and denied in
part the motion to dismiss. The court held that the
County was not entitled to Eleventh Amendment
immunity. But the court agreed with the County that
Taylor could not recover damages for wrongful
incarceration. The district court then certified its
order for interlocutory appeal pursuant to 28 U.S.C.
§ 1292(b), concluding that resolution of several legal
issues “may materially advance the ultimate
termination of the litigation.”
Both parties applied to this court for permission to
appeal. See 28 U.S.C. § 1292(b) (permitting an
“application for an appeal hereunder”). The County
sought permission to appeal the district court’s
denial of immunity, and Taylor sought permission to
appeal the district court’s ruling that he may not
recover damages for wrongful incarceration.
A motions panel of this court denied both
applications to appeal pursuant to § 1292(b). But the
motions panel construed the County’s application, in
part, as a timely notice of appeal from the denial of
Eleventh Amendment immunity from suit. See
Cortez v. County of Los Angeles, 294 F.3d 1186, 1188

4a
(9th Cir. 2002) (holding that we have appellate
jurisdiction under the collateral-order doctrine over a
denial of Eleventh Amendment immunity from suit
(citing Puerto Rico Aqueduct & Sewer Auth. v.
Metcalf & Eddy, Inc., 506 U.S. 139, 147 (1993))). The
motions panel therefore ordered that the appeal
proceed under the collateral-order doctrine of 28
U.S.C. § 1291.
In accordance with that order, the parties then
filed briefs addressing the issue of the County’s
asserted immunity under the Eleventh Amendment.
At our request, the parties also filed supplemental
briefs addressing whether Taylor may recover
damages for wrongful incarceration.
A.

Eleventh Amendment Immunity

The County asserts that we have jurisdiction to
review the district court’s ruling on Eleventh
Amendment immunity under the two jurisdictional
provisions noted above: discretionary review under
§ 1292(b) and the collateral-order doctrine under
§ 1291.
“When a party seeks a section 1292(b) interlocutory
appeal, the court of appeals must undertake a twostep analysis.” Arizona v. Ideal Basic Indus. (In re
Cement Antitrust Litig.), 673 F.2d 1020, 1026 (9th
Cir. 1982). First, we determine whether the appeal
meets the legal requirements of § 1292(b). Id. “If we
conclude that the requirements have been met, we
may, but need not, exercise jurisdiction. The second
step in our analysis is therefore to decide whether, in
the exercise of the discretion granted us by the
statute, we want to accept jurisdiction.” Id.; see 28

5a
U.S.C. § 1292(b) (“The Court of Appeals . . . may
thereupon, in its discretion, permit an appeal to be
taken from such order . . . .” (emphasis added)); see
also Gelboim v. Bank of Am. Corp., 135 S. Ct. 897,
906 (2015) (stating that a district court’s certification
under § 1292(b) “may be accepted or rejected in the
discretion of the court of appeals”). Where, as here,
the motions panel has decided the § 1292(b) issue in
the first instance, “we give deference to the ruling of
the motions panel.” Kuehner v. Dickinson & Co., 84
F.3d 316, 318 (9th Cir. 1996). With respect to the
question of Eleventh Amendment immunity, we see
no reason to second-guess the motions panel’s denial
of interlocutory review under § 1292(b).
We therefore turn to whether we have appellate
jurisdiction under § 1291. On preliminary review, the
motions panel concluded that appellate jurisdiction
appeared to be proper under the collateral-order
doctrine because the County asserted “Eleventh
Amendment immunity.” “Although we defer to the
ruling of the motions panel granting an order for
interlocutory appeal, we have an independent duty to
confirm that our jurisdiction is proper.” Reese v. BP
Expl. (Alaska) Inc., 643 F.3d 681, 688 (9th Cir. 2011)
(internal quotation marks omitted). For the reasons
stated below, we now conclude that the collateralorder doctrine does not apply here.
In an interlocutory appeal, we have appellate
jurisdiction under 28 U.S.C. § 1291 to consider
claims of immunity from suit, but we lack such
appellate jurisdiction to consider claims of immunity
from liability. SolarCity Corp. v. Salt River Project
Agric. Improvement & Power Dist., 859 F.3d 720, 725
(9th Cir. 2017). Under Puerto Rico Aqueduct, 506

6a
U.S. at 144–45, an ordinary claim of Eleventh
Amendment immunity encompasses a claim of
immunity from suit. The rationale of Puerto Rico
Aqueduct is that an interlocutory appeal is necessary
to vindicate a state entity’s entitlement to immunity
from suit, which would be lost if a case were
permitted to go to trial. Id. But an immunity from
liability may be vindicated fully after final judgment,
so the collateral-order doctrine does not encompass
an interlocutory appeal from a denial of immunity
from liability. See SolarCity, 859 F.3d at 725
(“Unlike immunity from suit, immunity from liability
can be protected by a post-judgment appeal. Denials
of immunity from liability therefore do not meet the
requirements for immediate appeal under the
collateral-order doctrine.” (citation omitted)).
Before us, Taylor argued that the County, by
consenting to removal of the case to federal court,
waived Eleventh Amendment immunity. See Lapides
v. Bd. of Regents of Univ. Sys., 535 U.S. 613, 624
(2002) (holding that the state’s consenting to removal
to federal court “waived its Eleventh Amendment
immunity” with respect to state law claims); Embury
v. King, 361 F.3d 562, 566 (9th Cir. 2004) (extending
Lapides to federal law claims and announcing “a
straightforward, easy-to-administer rule in accord
with Lapides: Removal waives Eleventh Amendment
immunity.”). In response, the County cited decisions
from other circuits that have held that removal
waives immunity from suit but does not waive
immunity from liability. See, e.g., Stroud v.
McIntosh, 722 F.3d 1294, 1301 (11th Cir. 2013) (“We
hold that although the Board’s removal to federal
court waived its immunity-based objection to a

7a
federal forum, the Board retained its immunity from
liability . . . .”). The County clarified that, in this
case, it was asserting only immunity from liability.
See, e.g., Reply Brief at 17 (“Pima County asserted
Eleventh Amendment immunity as a substantive bar
to Taylor’s claim . . . . In other words, it was asserted
as a bar to liability rather than a bar to the federal
court’s ability to hear Taylor’s claim.” (emphasis
added)). The County’s asserted immunity from
liability can be vindicated fully after final judgment;
accordingly, the collateral-order doctrine of § 1291
does not apply here. SolarCity, 859 F.3d at 725.
In conclusion, we exercise our discretion under
§ 1292(b) to deny the County’s application for
permission to appeal, and we conclude that § 1291’s
collateral-order doctrine does not apply. We therefore
dismiss the County’s appeal.
B.

Damages for Wrongful Incarceration

1.

Appellate Jurisdiction

Taylor asks us to exercise our discretion under
§ 1292(b) to reconsider the motions panel’s denial of
his application for permission to appeal. He asks that
we review the district court’s ruling that he may not
recover compensatory damages for wrongful
incarceration. In the highly unusual circumstances of
this case, we agree to review that issue.
Taylor seeks other forms of relief, such as nominal
damages, so the district court’s ruling does not
dispose of his case entirely. But Taylor emphasizes
the importance of the incarceration-related damages.
From a practical standpoint, the district court’s
ruling likely resolves a substantial portion of his

8a
case. Moreover, if we decline to review this issue
now, he will not be able to obtain review until after
discovery and, possibly, a trial. That ordinary result
from a denial of interlocutory review has, in Taylor’s
view, uncommon consequences here. Taylor notes
that he is in his sixties, having spent most of his
life—42 years—in prison. The entire basis of his
complaint is that his decades in prison were
unconstitutional. He characterizes having to wait
additional years before this important issue is
resolved as “yet another miscarriage of justice.”
As noted, we ordinarily do not disturb a motions
panel’s determination under § 1292(b). Kuehner, 84
F.3d at 318. But we agree with Taylor that a
departure from our ordinary practice is justified,
both because his situation is rare and because our
own rulings have added to the delay. We initially
denied discretionary review but ordered briefing on
the issue of Eleventh Amendment immunity, further
forestalling final resolution of this case. We are
persuaded to exercise our discretion under § 1292(b)
to resolve this issue now.
2.

Discussion

Taylor seeks damages for wrongful incarceration
stemming from the 42 years that he spent in prison.
The Supreme Court’s holding in Heck v. Humphrey,
512 U.S. 477 (1994), provides an important
limitation on Taylor’s claims. Under Heck, a plaintiff
in a § 1983 action may not seek a judgment that
would necessarily imply the invalidity of a statecourt conviction or sentence unless, for example, the
conviction had been vacated by the state court. Id. at
486–87. Here, Taylor’s 1972 jury conviction has been

9a
vacated by the state court, so Heck poses no bar to a
challenge to that conviction or the resulting
sentence. But Taylor’s 2013 conviction, following his
plea of no contest, remains valid. Accordingly, Taylor
may not state a § 1983 claim if a judgment in his
favor “would necessarily imply the invalidity of his
[2013] conviction or sentence.” Id. at 487. As the
district court summarized, “Heck does not bar
[Taylor] from raising claims premised on alleged
constitutional violations that affect his 1972
convictions but do not taint his 2013 convictions.”
Recognizing that limitation, Taylor stresses that
“[h]e challenges his 1972 prosecution, convictions
and sentence and does not challenge his 2013 ‘no
contest’ pleas or sentence.” (Emphasis added.)
Taylor alleges that his 1972 conviction and
resulting sentence were plagued by constitutional
violations and that those errors initially caused his
incarceration. Critically, however, all of the time that
Taylor served in prison is supported by the valid
2013 state-court judgment. The state court accepted
the plea agreement and sentenced Taylor to time
served. For that reason, even if Taylor proves
constitutional violations concerning the 1972
conviction, he cannot establish that the 1972
conviction
caused
any
incarceration-related
damages. As a matter of law, the 2013 conviction
caused the entire period of his incarceration.
Our decision in Jackson v. Barnes, 749 F.3d 755
(9th Cir. 2014), is instructive. A jury originally
convicted the plaintiff of rape and murder. Id. at 758.
His murder conviction—but not his rape conviction—
was later vacated. Id. at 759 & n.1. He was later
convicted, once again, of murder. Id. at 759. In his

10a
§ 1983 action, we concluded that he was “not entitled
to compensatory damages for any time he spent in
prison” because he was “not imprisoned for any
additional time as a result of his first, illegal
conviction.” Id. at 762. Jackson differs factually from
this case in that Jackson’s term of incarceration was
supported fully by the original rape conviction, which
had not been overturned. Id. But the general
principle applies equally here: when a valid,
unchallenged conviction and sentence justify the
plaintiff’s period of imprisonment, then the plaintiff
cannot prove that the challenged conviction and
sentence caused his imprisonment and any resulting
damages.
The First Circuit reached the same result in a case
that is factually indistinguishable from this one. In
Olsen v. Correiro, 189 F.3d 52, 55 (1st Cir. 1999), a
jury found the plaintiff guilty of murder, but the
state court later overturned that conviction. The
plaintiff then pleaded nolo contendere to
manslaughter, and the state court sentenced him to
time served. Id. In the plaintiff’s § 1983 action
challenging the constitutionality of the original jury
conviction, the First Circuit held that he could not
recover incarceration-related damages because he
could not establish that the alleged constitutional
violations caused his imprisonment. Id. at 70.
“Olsen’s valid manslaughter conviction and sentence
are the sole legal cause of his incarceration.” Id.
Similarly here, Taylor’s valid 2013 conviction and
sentence are the sole legal causes of his
incarceration; he cannot recover damages for
wrongful incarceration.

11a
Our decision also accords with the Second Circuit’s
decision in Poventud v. City of New York, 750 F.3d
121 (2d Cir. 2014) (en banc). A jury convicted the
plaintiff of serious crimes but, seven years later, a
state court vacated the conviction and sentence. Id.
at 124. The plaintiff then pleaded guilty to a lesser
crime, and a state court imposed a one-year
sentence. Id. In the plaintiff’s § 1983 action, the
Second Circuit held that he could seek damages for
wrongful incarceration for the years he spent in
prison, except for the one year that was supported by
the valid criminal judgment: “Poventud cannot seek
to collect damages for the time that he served
pursuant to his plea agreement (that is, for the yearlong term of imprisonment).” Id. at 136 (citing Olsen,
189 F.3d at 55). Applying the same principle here,
Taylor cannot seek to collect damages for the time
that he served pursuant to his plea agreement.
We agree with the analyses and conclusions of our
sister circuits. A plaintiff in a § 1983 action may not
recover incarceration-related damages for any period
of incarceration supported by a valid, unchallenged
conviction and sentence. We take no pleasure in
reaching this unfortunate result, given Taylor’s
serious allegations of unconstitutional actions by the
County. But we cannot disregard the limitations
imposed by Congress and the Supreme Court on the
scope of § 1983 actions.
DISMISSED in part and AFFIRMED in part.
The parties shall bear their own costs on appeal.

12a
GRABER, Circuit Judge, concurring:
I join the opinion in full. I write separately to
explain my view that, in Cortez v. County of Los
Angeles, 294 F.3d 1186 (9th Cir. 2002), we wrongly
exercised jurisdiction over an interlocutory appeal in
circumstances similar to those we face here and that,
in an appropriate case, we should overrule Cortez in
our en banc capacity.
“[O]nly States and arms of the State possess
immunity from suits authorized by federal law.” N.
Ins. Co. of N.Y. v. Chatham County, 547 U.S. 189,
193 (2006). Counties do not. Lincoln County v.
Luning, 133 U.S. 529 (1890). Here, the only
appellant is Pima County. The County plainly is not
a State, and it has not asserted that it is an “arm of
the State.” See Mitchell v. L.A. Cty. Cmty. Coll. Dist.,
861 F.2d 198, 201–02 (9th Cir. 1989) (describing the
factors to consider when deciding whether a
governmental entity is an “arm of the state”).
Accordingly, the County is not entitled to Eleventh
Amendment immunity. The analysis is truly that
simple. See, e.g., Alden v. Maine, 527 U.S. 706, 756
(1999) (“[Sovereign] immunity does not extend to
suits prosecuted against a municipal corporation or
other governmental entity which is not an arm of the
State.”); Will v. Mich. Dep’t of State Police, 491 U.S.
58, 70 (1989) (“States are protected by the Eleventh
Amendment while municipalities are not[.]”);
SolarCity Corp. v. Salt River Project Agric.
Improvement & Power Dist., 859 F.3d 720, 729 (9th
Cir. 2017) (“[M]unicipalities . . . may not rely on . . .
Eleventh Amendment immunity.”); Eason v. Clark
Cty. Sch. Dist., 303 F.3d 1137, 1141 (9th Cir. 2002)

13a
(“[T]he Eleventh Amendment does not extend to
counties and municipal corporations.”).
The County nevertheless seeks to assert Eleventh
Amendment immunity and thereby to invoke our
jurisdiction over this interlocutory appeal under the
collateral-order doctrine. The County’s attempt
requires some explanation.
Plaintiff Louis Taylor has asserted claims against
the County under Monell v. Department of Social
Services, 436 U.S. 658 (1978), which requires proof of
a policy, practice, or custom by the County. He
asserts that the actions of certain government
officials amounted to a practice or custom by the
County. The County’s sole argument on appeal is
that the relevant officials were, in fact, working on
behalf of the State, so the County cannot be liable.
The Supreme Court has recognized the viability of
that argument: if the relevant officials were working
on behalf of the State, then any practice or custom
was a State practice or custom, not a municipal
practice or custom. McMillian v. Monroe County, 520
U.S. 781 (1997). But that argument does not bear on
whether the municipality has Eleventh Amendment
immunity. Proof that the relevant officials did not
work for the municipality defeats the plaintiff’s case
but by virtue of an ordinary failure to prove an
element of a claim—here, the existence of a
municipal policy, practice, or custom. If the
defendant municipality is correct that the relevant
official was a State official, then the plaintiff has
failed to state a claim against the municipality.
Eleventh Amendment immunity plays no role.

14a
Nowhere in McMillian does the Supreme Court
mention the Eleventh Amendment or immunity from
suit. (Nor had the circuit court of appeals mentioned
those doctrines. McMillian v. Johnson, 88 F.3d 1573
(11th Cir. 1996).) Not surprisingly, our cases, too,
describe this doctrine in terms of whether the
municipality was the actor, rather than in terms of
sovereign immunity and the Eleventh Amendment.
See, e.g., Weiner v. San Diego County, 210 F.3d 1025,
1031 (9th Cir. 2000) (“[T]he San Diego County
district attorney was acting as a state official in
deciding to proceed with Weiner’s criminal
prosecution. Weiner’s § 1983 claim against the
County, therefore, fails. The County was not the
actor; the state was.” (emphasis added)); Jackson v.
Barnes, 749 F.3d 755, 767 (9th Cir. 2014) (“Jackson
alleges, in effect, that the District Attorney’s Office is
liable for Murphy’s unlawful prosecutorial conduct.
The District Attorney’s Office, however, acts as a
state office with regard to actions taken in its
prosecutorial capacity, and is not subject to suit
under § 1983. Weiner, 210 F.3d at 1030.”)1; United
States v. County of Maricopa, 889 F.3d 648, 651 (9th
Cir. 2018) (“Because the traffic-stop policies at issue
fall within the scope of a sheriff’s law-enforcement
duties, we conclude that Arpaio acted as a final
policymaker for Maricopa County when he instituted
those policies.”); Goldstein v. City of Long Beach, 715
F.3d 750 (9th Cir. 2013) (lengthy analysis with no
mention of the Eleventh Amendment or sovereign
1

The district court in Jackson had dismissed the case on the
ground of the Eleventh Amendment, but we did not adopt that
formulation; instead, we cited Weiner, which did not mention
the Eleventh Amendment.

15a
immunity); Botello v. Gammick, 413 F.3d 971 (9th
Cir. 2005) (same); Brewster v. Shasta County, 275
F.3d 803, 805 (9th Cir. 2001) (“The question is
whether he is a policymaker on behalf of the state or
the county; if he is a policymaker for the state, then
the county cannot be liable for his actions.”).
Most importantly, precisely the same issue as
decided in McMillian—whether Alabama sheriffs act
for the state or the county—arose in a case before the
Supreme Court in 1995, two years before McMillian.
In Swint v. Chambers County Commission, 514 U.S.
35, 41 (1995), the Supreme Court “granted certiorari
to review the Court of Appeals’ decision that Sheriff
Morgan is not a policymaker for Chambers County.”
But the Court then ordered supplemental briefing on
the issue of appellate jurisdiction. Id. In its opinion,
the Supreme Court unanimously held that the court
of appeals lacked appellate jurisdiction:
The commission’s assertion that Sheriff
Morgan is not its policymaker does not rank,
under our decisions, as an immunity from suit.
Instead, the plea ranks as a “mere defense to
liability.” An erroneous ruling on liability may
be reviewed effectively on appeal from final
judgment. Therefore, the order denying the
county commission’s summary judgment
motion was not an appealable collateral order.
Id. at 43 (citation omitted).
There is no doubt that the underlying substantive
issue—whether the sheriff acted for the county or the
state—was precisely the same two years later in
McMillian, because the Court in McMillian noted

16a
that the Eleventh Circuit in Swint had reached the
issue but that the Supreme Court had vacated the
Eleventh Circuit’s decision for lack of appellate
jurisdiction. McMillian, 520 U.S. at 786 n.3 (citing
“Swint v. Wadley, 5 F.3d 1435, 1450–51 (1993),
vacated for lack of appellate jurisdiction, 514 U.S. 35
(1995)” (emphasis added)). Applying Swint, other
circuit courts have held, unambiguously, that
“[w]hen a county appeals asserting that a sheriff is
not a county policymaker under § 1983, that presents
a defense to liability issue for the county over which
we do not have interlocutory jurisdiction.” Manders
v. Lee, 338 F.3d 1304, 1307 n.6 (11th Cir. 2003) (en
banc); see also Skelton v. Camp, 234 F.3d 292, 297
(5th Cir. 2000) (“[T]he determination of which entity
a defendant serves as policy maker presents a
liability issue, not an immunity issue.”); accord
Hunter v. Town of Mocksville, 789 F.3d 389, 403 n.4
(4th Cir. 2015). Applying Swint’s rule here, we lack
jurisdiction over the County’s interlocutory appeal
because the County argues solely that the relevant
officials were not County policymakers.
Our decision in Cortez overlooked this fundamental
jurisdictional defect. Cortez, like this case, was an
interlocutory appeal by a county from the denial of
Eleventh Amendment immunity. 294 F.3d at 1188.
We stated, correctly, that we had jurisdiction over
the denial of Eleventh Amendment immunity, but we
then reached the issue whether the sheriff acted on
behalf of the county or the state, incorrectly
characterizing that issue as pertaining to the
Eleventh Amendment. Id. at 1188–89. We did not
cite Swint. Accordingly, the rule in our circuit, unlike
the rule in every other circuit, is that interlocutory

17a
appeals may be taken from a district court’s rejection
of a municipality’s argument that the relevant
government officials acted on behalf of the State and
not the municipality.
We plainly erred in Cortez. In an appropriate case,
we should undo this error in our en banc capacity.

18a
SCHROEDER, Circuit Judge, dissenting as to Part
B.2:
This decision magnifies an already tragic injustice.
At the time of Tucson’s Pioneer Hotel fire in 1972,
Louis Taylor was an African American male of
sixteen. Arrested near the hotel, he was convicted on
the basis of little more than that proximity and trial
evidence that “black boys” like to set fires. He has
spent a lifetime of 42 years in prison following his
wrongful conviction.
When he filed his state court petition the county
that had prosecuted him did not even respond to his
allegations of grievous deprivations of civil rights,
including the withholding of evidence that the fire
was not caused by arson at all, and the indicia of
racial bias underlying the entire prosecution. Instead
of responding, the county offered Taylor his
immediate freedom in return for his pleading no
contest to the original charges and agreeing to a
sentence of time served.
He accepted the offer, since his only alternative
was to stay in prison and wait for his petition for
collateral relief to wend its way through the courts, a
process that could take years. Because his original
conviction had been vacated and all of the prison
time he had served was as a result of that invalid
conviction, he filed this action to recover damages for
his wrongful incarceration.
Yet the majority holds that he can recover nothing.
Why? Because it interprets the few cases with
circumstances remotely similar to this one to require
the admittedly unfair holding that his plea

19a
agreement somehow validates or justifies the
original sentence that deprived Taylor of a
meaningful life.
In my view our law is not that unjust.
Our Circuit law actually supports the award of
damages for the time Taylor served in prison as a
result of an unlawful, and now vacated conviction.
Our leading case is Jackson v. Barnes, 749 F.3d 755
(9th Cir. 2014), where, as here, the plaintiff’s original
conviction was vacated on habeas review. Hence, a
claim for damages resulting from wrongful
incarceration was not barred by Heck v. Humphrey.
Jackson, 749 F.3d at 760–61. The majority
acknowledges the same is true here.
In Jackson the plaintiff could not recover damages,
however, because the wrongful conviction had not yet
resulted in any wrongful incarceration. This was
because he was still serving other, earlier imposed
sentences and never began serving the term imposed
as a result of the unlawful conviction. In other words,
there was a lack of causation. Id. at 762. Taylor, by
contrast, served decades of imprisonment as a result
of his first, vacated conviction, so there is no lack of
causation here. Under Jackson, he should recover.
That Taylor later, in order to gain prompt release,
pleaded no contest to the charges and to a sentence
of time served, does not undo the causal sentencing
chain set in motion after the original, invalid
conviction. The majority’s discussion is not consistent
with Jackson.
The Second Circuit’s decision in Poventud also
supports reversal. Poventud v. City of N.Y., 750 F.3d

20a
121 (2d Cir. 2014) (en banc). Poventud’s conviction
was vacated on collateral attack, on the basis of a
Brady violation, and a new trial was ordered. Id. at
124. He then pleaded guilty to a lesser charge,
pursuant to a plea agreement that dismissed all
other charges and stipulated to a one-year sentence,
with time already served. Id. The Second Circuit
held that Poventud’s Brady-based claim was not
Heck-barred insofar as it related to his first
conviction. Id. at 124–25, 134–36. As the en banc
court explained, were Poventud to win at trial in his
civil rights suit, “the legal status of his [second
conviction] would remain preserved.” Id. at 138
(quoted by Jackson, 749 F.3d at 761). He was
permitted to pursue a claim of damages for the time
he served beyond the one year plea agreement
stipulation. Judge Lynch’s concurrence is also
instructive, as it focuses on the injustice of relying on
the subsequent guilty plea to deny Poventud a
remedy for the unfairness of the first trial. Id. at
138–47. The majority’s decision ignores such
injustice in this case.
Taylor’s case is even more compelling than those of
Jackson and Poventud because his first conviction
was so deeply tainted that we now know the
disastrous fire may not have been set by anyone, and
the prosecution was without adequate foundation
from the beginning. He won more than a new trial,
but virtual exoneration. His situation is therefore
also different from the situation in Olsen v. Correiro,
189 F.3d 52 (1st Cir. 1999), where the plaintiff’s
murder conviction was overturned but he was
subsequently convicted of manslaughter.

21a
Far from being the product of a new,
constitutionally-conducted second trial, Taylor’s
second conviction was the product of his desperate
circumstances. In his 60’s, he faced acceptance of the
plea offer or waiting years for a habeas petition to
work its way through the courts. We should not
tolerate such coercive tactics to deprive persons of a
remedy for violations of their constitutional rights.
To say such a plea justifies the loss of 42 years, as
the majority asserts, is to deny the reality of this
situation and perpetuate an abuse of power that
§ 1983 should redress.
Our court has spoken to this before:
“When prosecutors betray their solemn
obligations and abuse the immense power they
hold, the fairness of our entire system of
justice is called into doubt and public
confidence in it is undermined.” Silva v.
Brown, 416 F.3d 980, 991 (9th Cir. 2005).
So has the Supreme Court:
“It hardly seems unjust to require a municipal
defendant which has violated a citizen’s
constitutional rights to compensate him for the
injury suffered thereby. Indeed, Congress
enacted § 1983 precisely to provide a remedy
for such abuses of official power.” Owen v. City
of Independence, 445 U.S. 622, 654 (1980).
I therefore regretfully and respectfully dissent.

22a
APPENDIX B
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
_________
LOUIS TAYLOR,
Plaintiff,
v.
COUNTY OF PIMA, ET AL.,
_________

Defendants.

No. CV-15-00152-TUC-RM
_________
ORDER
_________
June 6, 2017
_________
Pending before the Court is Plaintiff’s Motion for
Reconsideration (Doc. 68). Defendants filed
Responses (Docs. 71, 72), and Plaintiff filed a Reply
(Doc. 74). On April 19, 2017, the parties filed a Joint
Report (Doc. 73), which contained requests for
certification of certain issues for interlocutory
appeal. On May 15, 2017, the Court held a hearing
on Plaintiff’s Motion for Reconsideration and the
requests for certification of issues for interlocutory
appeal. (Doc. 76.)
After the hearing, Defendant Pima County filed a
Supplemental Request Regarding Issues for
Interlocutory Appeal (Doc. 77), which is a one-

23a
paragraph document clarifying the issues that Pima
County believes should be certified for interlocutory
appeal. Plaintiff then filed a Supplemental
Memorandum (Doc. 78), which contains five pages of
argument related to Plaintiff’s Motion for
Reconsideration,
and
nearly
70
pages
of
attachments. Defendant Pima County filed a request
for leave to respond to the arguments raised in
Plaintiff’s Supplemental Memorandum. (Doc. 79).
I. Background1
On March 16, 2017, this Court issued an Order
(Doc. 63) partially granting and partially denying
Defendants’ second Motions to Dismiss (Docs. 54,
55). In the Order, the Court held that claims based
on allegations that Plaintiff was wrongfully charged,
convicted, and imprisoned were barred under Heck v.
Humphrey, 512 U.S. 477 (1994), because a judgment
in favor of Plaintiff on such claims would necessarily
imply the invalidity of Plaintiff’s outstanding 2013
convictions and sentence. (Doc. 63 at 9-11.) The
Court also held that claims premised on allegations
that Plaintiff was wrongfully arrested and
unlawfully interrogated were barred by the statute of
limitations. (Id. at 11-12.) The Court held that
neither Heck nor the statute of limitations barred
claims based on alleged constitutional violations
affecting the validity of Plaintiff’s 1972 convictions
but not the validity of his subsequent 2013
convictions. (Id. at 13.) In determining whether
Plaintiff’s claims affect the validity of his 2013
1

Plaintiff’s factual allegations and this case’s procedural
history are described more fully in prior Orders (see, e.g., Docs.
35, 48, 63.)

24a
convictions, the Court analyzed whether successfully
proving the claims would fatally undermine the
factual basis of Plaintiff’s 2013 plea. (Id. at 13-16.)
The Court then evaluated the sufficiency of the
factual allegations of Plaintiff’s Second Amended
Complaint. (Id. at 16-19.) The Court found that
Plaintiff’s Second Amended Complaint included
sufficient factual allegations in support of the 42
U.S.C. § 1983 claims alleged in Counts One, Three,
Four, Five, and Six, but that the factual allegations
in support of Count Two were insufficient because
Plaintiff did not identify any specific deficiencies in
the City of Tucson’s training and supervision of
employees and did not connect any such deficiencies
to allegations of constitutional injury that did not
run afoul of either Heck or the statute of limitations.
(Id. at 16-18.) The Court rejected Defendant Pima
County’s argument that it was entitled to Eleventh
Amendment immunity. (Id. at 18-19.) Finally, the
Court held that Plaintiff’s outstanding 2013
convictions and time-served sentence preclude
Plaintiff from obtaining compensatory damages for
the approximately 42 years he spent incarcerated,
but the Court declined to dismiss Plaintiff’s
compensatory damages claim because Plaintiff may
be able to establish non-incarceration-based
compensatory damages. 2 (Id. at 19-20.) In

2

The Court also determined that the state-law malicious
prosecution claim alleged in Count Nine of Plaintiff’s Second
Amended Complaint should be dismissed because Plaintiff
conceded that no notice of claim was filed. (Id. at 20.) The
Court declined to address the state-law claims asserted in
Counts Seven and Eight because Defendants made no specific

25a
determining that Plaintiff was not entitled to
compensatory damages, the Court cited Jackson v.
Barnes, 749 F.3d 755, 762 (9th Cir. 2014), and Olsen
v. Correiro, 189 F.3d 52, 66-70 (1st Cir. 1999).
II. Plaintiff’s Supplemental Memorandum
Plaintiff’s
Supplemental
Memorandum
inaccurately states that both Pima County and the
City of Tucson filed supplemental memoranda
following the May 15, 2017 hearing. (Doc. 78 at 1.)
The City of Tucson did not file any supplemental
materials following the May 15, 2017 hearing. Pima
County filed a Supplemental Request (Doc. 77)
regarding the issues that it believes are appropriate
for interlocutory appeal, but that Supplemental
Request is only one paragraph long, and—unlike
Plaintiff’s Supplemental Memorandum—it does not
contain arguments related to Plaintiff’s Motion for
Reconsideration.
Plaintiff’s
Supplemental
Memorandum
is
essentially an untimely supplemental reply in
support of Plaintiff’s Motion for Reconsideration.
Plaintiff did not seek leave of Court to file the
Supplemental Memorandum. Furthermore, the
exhibits
attached
to
the
Supplemental
Memorandum—reports drafted by the Arson Review
Committee and the Tucson Fire Department—are
not appropriate for consideration at this stage of the
case. A district court may “consider certain
materials—documents attached to the complaint,
documents incorporated by reference in the
arguments in their Motions to Dismiss concerning those claims.
(Id.)

26a
complaint, or matters of judicial notice—without
converting [a] motion to dismiss into a motion for
summary judgment.” United States v. Ritchie, 342
F.3d 903, 908 (9th Cir. 2003). A document “may be
incorporated by reference into a complaint if the
plaintiff refers extensively to the document or the
document forms the basis of the plaintiff’s claim.” Id.
Although Plaintiff references the Arson Review
Committee findings in his Second Amended
Complaint (Doc. 40 at 10), he does not refer
extensively to either the Arson Review Committee
report or the Tucson Fire Department report, he did
not attach either document to the complaint, and
neither document is a matter appropriate for judicial
notice.
Although the Court has reviewed the arguments
raised in Plaintiff’s Supplemental Memorandum, the
Court does not find that a response to the
Supplemental Memorandum would assist the Court
in resolving Plaintiff’s Motion for Reconsideration, as
the parties have already thoroughly argued the
issues implicated by the Motion for Reconsideration.
Accordingly, the Court will deny Pima County’s
request
to
respond
to
the
Supplemental
Memorandum.

27a
III.

Plaintiff’s Motion for Reconsideration3

Plaintiff’s Motion for Reconsideration challenges
the portion of the Court’s March 16, 2017 Order
holding that Plaintiff is precluded from obtaining
incarceration-based compensatory damages. Plaintiff
argues that Jackson and Olsen are inapplicable, and
that no legal authority supports the Court’s
conclusion that Heck bars Plaintiff from obtaining
such damages. (Doc. 68 at 2-7.) Plaintiff further
argues that barring Plaintiff’s incarceration-based
compensatory-damages claim at this point in the
proceedings is inappropriate because, under binding
Ninth Circuit precedent, proximate cause in § 1983
cases is a question of fact for the jury rather than a
question of law for the Court. (Id. at 8-9.) Finally,
Plaintiff argues that public policy concerns dictate
against dismissing Plaintiff’s incarceration-based
compensatory-damages claim. (Id. at 9-14.)
A. Standard of Review
Motions for reconsideration should be granted only
in rare circumstances. See Defenders of Wildlife v.
3

Plaintiff attaches to his Motion for Reconsideration a
transcript of his April 2, 2013 change of plea and sentencing
hearing in the Pima County Superior Court (Doc. 68-1) and a
copy of his 2013 plea agreement (Doc. 68-2). The Court may
“take judicial notice of ‘matters of public record’” without
converting a Rule 12(b)(6) motion into a motion for summary
judgment, but it “may not take judicial notice of a fact that is
‘subject to reasonable dispute.’” Lee v. City of L.A., 250 F.3d
668, 688-89 (9th Cir. 2001). Thus, it is appropriate for this
Court to take judicial notice of the fact of Plaintiff’s 2013 plea
and subsequent 2013 convictions and sentence, but the Court
will not take judicial notice of any disputed facts related to the
2013 proceedings.

28a
Browner, 909 F. Supp. 1342, 1351 (D. Ariz. 1995).
“Reconsideration is appropriate if the district court
(1) is presented with newly discovered evidence, (2)
committed clear error or the initial decision was
manifestly unjust, or (3) if there is an intervening
change in controlling law.” School Dist. No. 1J,
Multnomah Cnty. v. ACandS, Inc., 5 F.3d 1255, 1263
(9th Cir. 1993). Motions for reconsideration should
not be used for the purpose of asking a court “‘to
rethink what the court had already thought through
– rightly or wrongly.’” Defenders of Wildlife, 909 F.
Supp. at 1351 (quoting Above the Belt, Inc. v. Mel
Bohannan Roofing, Inc., 99 F.R.D. 99, 101 (E.D. Va.
1983)). A motion for reconsideration “may not be
used to raise arguments or present evidence for the
first time when they could reasonably have been
raised earlier in the litigation.” Kona Enters., Inc. v.
Estate of Bishop, 229 F.3d 877, 890 (9th Cir. 2000).
Nor may a motion for reconsideration repeat any
argument previously made in support of or in
opposition to a motion. Motorola, Inc. v. J.B. Rodgers
Mech. Contractors, Inc., 215 F.R.D. 581, 586 (D. Ariz.
2003). Mere disagreement with a previous order is
an insufficient basis for reconsideration. See Leong v.
Hilton Hotels Corp., 689 F. Supp. 1572, 1573 (D.
Haw. 1988).
Consistent with applicable Ninth Circuit precedent,
Rule 7.2(g) of the Local Rules of Civil Procedure
states that motions for reconsideration will
ordinarily be denied “absent a showing of manifest
error or a showing of new facts or legal authority
that could not have been brought to [the Court’s]
attention earlier with reasonable diligence.” LRCiv
7.2(g)(1). Rule 7.2(g) further provides:

29a
Any [motion for reconsideration] shall point
out with specificity the matters that the
movant
believes
were
overlooked
or
misapprehended by the Court, any new
matters being brought to the Court’s attention
for the first time and the reasons they were
not presented earlier, and any specific
modifications being sought in the Court’s
Order. No motion for reconsideration of an
Order may repeat any oral or written
argument made by the movant in support of or
in opposition to the motion that resulted in the
Order.
Id. Failure to comply with the requirements of Rule
7.2(g)(1) “may be grounds for denial of the motion.”
Id.
B. Discussion
Plaintiff does not present any new facts or
intervening legal authority that could not have been
brought to the Court’s attention earlier with
reasonable diligence. See School Dist. No. 1J,
Multnomah Cnty., 5 F.3d at 1263; LRCiv 7.2(g)(1).
Accordingly, reconsideration is appropriate only if
the Court’s holding that Plaintiff cannot obtain
incarceration-based compensatory damages is clearly
erroneous or manifestly unjust. It appears that
Plaintiff is arguing that the Court’s holding is clearly
erroneous because it is not required by any binding
authority, and because the question of damages is
one of proximate cause, which Plaintiff contends is a
jury question under binding Ninth Circuit precedent.
Plaintiff also argues that the holding is unjust in

30a
light of the public policy issues implicated by this
case.
In
holding
that
Plaintiff
cannot
obtain
incarceration-based compensatory damages, the
Court relied upon the Ninth Circuit’s opinion in
Jackson and the First Circuit’s opinion in Olsen. 4
The plaintiff in Jackson sued under § 1983 for
damages resulting from an overturned first-degree
murder conviction. 749 F.3d at 758. Prior to the
§ 1983 suit, the plaintiff was convicted at a trial in
which the prosecution relied on evidence obtained in
violation of the plaintiff’s Miranda rights. Id. His
conviction was reversed and he was again convicted
without the use of the illegally obtained evidence. Id.
The Ninth Circuit held that the Plaintiff’s § 1983 suit
was not barred by Heck because the plaintiff’s
outstanding conviction—his second conviction—was
insulated from the illegally obtained evidence that
was the subject of his § 1983 suit. Id. at 760. A
judgment in the plaintiff’s favor in the § 1983 suit
would, accordingly, have had no bearing on the
plaintiff’s outstanding conviction; it would bear only
on the plaintiff’s earlier conviction, which had been
reversed. Id.

4

Plaintiff’s Motion for Reconsideration inaccurately describes
the Court’s March 16, 2017 Order. Plaintiff avers that the
Order states “that Jackson and Olsen bar wrongful
imprisonment claims under Heck.” (Doc. 68 at 14.) In its March
16, 2017 Order, the Court cited to Jackson and Olsen as support
for its conclusion that “Plaintiff is not entitled to compensatory
damages for the time he spent incarcerated,” but the Court did
not state that Jackson and Olsen barred wrongful
imprisonment claims under Heck. (See Doc. 63 at 19-20.)

31a
After concluding that the plaintiff’s § 1983 suit was
not barred by Heck, the Ninth Circuit in Jackson
analyzed whether the plaintiff was “entitled to
compensatory damages for any time he spent in
prison.” Id. at 762. The Ninth Circuit found that the
plaintiff “was not imprisoned for any additional time
as a result of his first, illegal conviction” because, at
the time of that conviction, he had already begun to
serve 29 years for various unrelated convictions, and
his earliest release date was not until two years after
he was convicted for the second time. Id. Accordingly,
the Ninth Circuit held that the plaintiff was “not
entitled to compensatory damages for any time he
spent in prison.” Id. The Court did not mention Heck
in its incarceration-based compensatory-damages
analysis.
The plaintiff in Olsen, like the Plaintiff in Jackson,
sued under § 1983 for damages resulting from an
overturned first-degree murder conviction. Olsen,
189 F.3d at 55. Prior to the § 1983 suit, the plaintiff’s
conviction was overturned based on investigating
police officers’ failure to disclose an audiotaped
interview with the prosecution’s chief witness. Id.
Rather than go through a new trial, the plaintiff pled
nolo contendere to a charge of manslaughter, was
convicted of that crime, and—like Plaintiff in the
above-entitled action—was sentenced to the time he
had already served for the original, overturned
conviction. Id. A jury awarded the plaintiff $1.5
million in compensatory damages, but the district
court overturned the award under Heck and ordered
a new trial on damages, at which evidence of
incarceration-based damages was excluded. Id. The
second jury awarded $6,000 in damages, and the

32a
plaintiff appealed to the First Circuit, seeking
reinstatement of the first damage award. Id.
The First Circuit affirmed the district court,
finding that the plaintiff was barred as a matter of
law
from
recovering
incarceration-based
compensatory damages. Id. at 55, 66. The First
Circuit first analogized to a hypothetical scenario in
which an individual is sentenced to a concurrent
term of imprisonment for two crimes or two counts of
conviction. Id. at 66. If one of the convictions is
overturned because it was secured through a
wrongful act, that act cannot be the “but for” cause of
the individual’s incarceration, because the individual
would have been incarcerated anyway pursuant to
the remaining, valid conviction. Id. The First Circuit
observed that such a hypothetical scenario was not
precisely analogous to the plaintiff’s situation in
Olsen, because the plaintiff could argue that the
defendants’ wrongful acts caused his first murder
conviction, that the first murder conviction caused
his incarceration, that the invalidation of the first
conviction caused prosecutors to offer a plea on a
manslaughter charge, and that the fact that the
plaintiff had already served time pursuant to the
invalid murder conviction caused him to agree to the
plea and to a sentence of time served. Id. at 67.
However, the First Circuit held that “[t]his tenuous
chain” of causation was not sufficient to allow the
plaintiff to obtain incarceration-based damages. Id.
The First Circuit reasoned that “the policies favoring
the finality of valid criminal convictions and
sentences and protecting them from collateral attack
through civil suit dictate[d] against allowing § 1983
liability for damages for imprisonment” under the

33a
circumstances of the case. Id. The court held:
“whether the problem is viewed as one of the limits
of § 1983 actions or of proximate cause, we conclude
that incarceration-related damages are not
available.” Id. at 67-68.
The First Circuit in Olsen analogized to the rule of
Heck but did not directly base its holding on a Heck
bar, perhaps due to uncertainty as to whether Heck
applies to a litigant who is no longer imprisoned. See
id. at 68-69. However, the policy concerns underlying
the court’s holding—finality and the prevention of
collateral
attacks
on
outstanding
criminal
convictions—are precisely the same policy concerns
underlying Heck. Compare id. at 67-70, with Heck,
512 U.S. at 485-86. And in the Ninth Circuit, it is
now clear that Heck applies to a § 1983 plaintiff who
is no longer imprisoned and is unable to seek federal
habeas relief. See Lyall v. City of L.A., 807 F.3d 1178,
1191-92, 1192 n.12 (9th Cir. 2015).
The facts of Jackson are somewhat analogous to
the facts of the hypothetical scenario described by
the First Circuit in Olsen. The facts of Olsen are
more directly analogous to the facts of the present
case. Like the plaintiff in Olsen, it is possible for
Plaintiff in the present case to make an argument for
causation: Plaintiff’s 1972 convictions caused his 42year imprisonment, and the fact that he had already
served 42 years in prison caused him to accept the
prosecution’s plea offer in 2013 and plead no contest
to 28 counts of murder for a sentence of time served.
Although this chain of causation is arguably
“tenuous,” Olsen, 189 F.3d at 67, the Court would be
more inclined to agree that the issue of
incarceration-based damages should be decided at a

34a
later point in these proceedings—either on summary
judgment or by a jury—if the issue were viewed
solely as an issue of causation.5 However, the Court
finds that the issue is properly viewed as one “of the
limits of § 1983 actions” in light of the policies of
finality and the prevention of collateral attacks on
outstanding criminal convictions. Id.
Plaintiff argues that policy concerns warrant
reconsideration of the Court’s holding that he is
barred
from
obtaining
incarceration-based
compensatory damages. In support of this argument,
Plaintiff contends that he went to the Pioneer Hotel
in December 1970 in order to help guests escape from
the fire at the hotel; he was profiled, targeted, and
arrested based on his race; he has maintained his
innocence for over 45 years; and he suspects that
Pima County required him to plead no contest in
2013 in order to protect its own financial interests.
5

Plaintiff asserts that Conn v. City of Reno, 591 F.3d 1081,
1102 (9th Cir. 2010) is “binding Ninth Circuit precedent”
establishing that proximate cause in § 1983 cases is a question
of fact for the jury. (Doc. 68 at 8.) The Court notes that the
Ninth Circuit’s decision in Conn was vacated upon the United
States Supreme Court’s grant of certiorari. See City of Reno v.
Conn, 131 S. Ct. 1812 (2011). However, the portion of the
decision relied upon by Plaintiff was later reinstated by the
Ninth Circuit. See Conn v. City of Reno, 658 F.3d 897 (9th Cir.
2011). In that portion of the decision, the Ninth Circuit
concluded that the plaintiffs had “presented sufficient evidence
of foreseeability that the question of proximate cause must be
decided by a jury.” Conn, 591 F.3d at 1102. The Ninth Circuit
did not hold that proximate cause in § 1983 cases must always
be decided by a jury; however, the decision does support the
proposition that issues of proximate cause should be resolved
either by a jury or, if no disputes of material fact exist, by the
Court on summary judgment.

35a
The Court shares Plaintiff’s concern that Heck and
its progeny may have unintentionally created a
financial incentive for prosecutors to require
convicted defendants asserting actual innocence
claims to enter no-contest pleas in exchange for
immediate release from confinement. Plaintiff
collaterally attacked his 1972 convictions with
evidence that the Pioneer Hotel fire could not
definitively be classified as arson. (Doc. 40 at 10
¶¶ 35-37.) If the fire was not arson, then Plaintiff is
innocent. The parties made an agreement that shortcircuited the post-conviction proceedings: the Pima
County Attorney’s Office agreed to stipulate to
Plaintiff’s request for post-conviction relief if
Plaintiff entered a no-contest plea to the same
charges for a sentence of time served. At the time of
the agreement, the parties’ bargaining positions were
inherently unequal. If Plaintiff agreed to plead no
contest to 28 counts of murder, he would be rewarded
with immediate release from confinement after
having served 42 years. If he refused, he would
continue to be imprisoned for months or years
awaiting full adjudication of his petition for postconviction relief. Plaintiff, understandably, chose
immediate freedom. It’s not clear that he understood
the true price he was paying for that freedom: a Heck
bar precluding him from attacking the validity of his
42-year imprisonment. If the Pima County
Attorney’s Office required Plaintiff to accept a nocontest plea for the purpose of creating a Heck bar to
§ 1983 liability, the Court is concerned that such
conduct undermines the fairness and integrity of the
justice system.

36a
Nevertheless, the Court agrees with Defendants
that Plaintiff’s contentions—that he is innocent and
was wrongfully required to plead no contest to 28
counts of murder for a sentence of time served—
implicate the policy concerns underlying Heck. No
court or jury has ruled that Plaintiff is innocent. If
Plaintiff were to successfully prove his contentions,
he would necessarily imply the invalidity of his
outstanding 2013 convictions and sentence. By
pleading no contest, Plaintiff agreed that both his
2013 convictions and time-served sentence were
valid. After previously agreeing not to contest the
2013 convictions and time-served sentence, Plaintiff
is now attempting to “question the finality of his
valid imprisonment by an action for incarcerationbased damages.” Olsen, 189 F.3d at 70. Although the
Court recognizes the difficulty of Plaintiff’s
predicament, Plaintiff’s contentions that he is
innocent and was wrongfully incarcerated for 42
years necessarily imply the invalidity of his
outstanding 2013 convictions and outstanding
sentence of time served. Plaintiff has cited no
authority supporting the existence of an exception to
Heck that applies in circumstances where a § 1983
plaintiff alleges that outstanding convictions were
unfairly procured in order to insulate a
governmental entity from § 1983 liability. Such an
exception may be appropriate under certain
circumstances in order to prevent manifest injustice;
however, the Court is not comfortable recognizing
such an exception absent further guidance from the
Ninth Circuit on the issue.

37a
IV. Requests for Interlocutory Appeal
When a district judge has made an interlocutory
order not appealable under 28 U.S.C. § 1292(a), and
is “of the opinion that such order involves a
controlling question of law as to which there is
substantial ground for difference of opinion and that
an immediate appeal from the order may materially
advance the ultimate termination of the litigation,
[s]he shall so state in writing.” 28 U.S.C. § 1292(b).
The Court of Appeals then has discretion to permit
an interlocutory appeal to be taken from such order
“if application is made to it within ten days after the
entry of the order.” Id. Such application “shall not
stay proceedings in the district court unless the
district judge or the Court of Appeals or a judge
thereof shall so order.” Id.
The Court finds that the issue of whether Plaintiff
is
barred
from
seeking
incarceration-based
compensatory damages “involves a controlling
question of law as to which there is substantial
ground for difference of opinion,” and that permitting
an interlocutory appeal of the Court’s finding that
such damages are barred would “materially advance
the ultimate termination” of this litigation. 28 U.S.C.
§ 1292(b). The Court also finds that the issue of
whether Defendant Pima County is entitled to
Eleventh Amendment immunity is also appropriate
for interlocutory appeal. Finally, the Court will grant
Defendants’ request to certify for interlocutory
appeal the issue of whether Plaintiff has met the
pleading requirements for asserting Monell claims.

38a
IT IS ORDERED:
1. Pima County’s Request (Doc. 79) to respond to
Plaintiff’s Supplemental Memorandum (Doc.
78) is denied.
2. Plaintiff’s Motion for Reconsideration (Doc. 68)
is denied.
3. The following issues
interlocutory appeal:

are

certified

for



Is Plaintiff barred from obtaining
incarceration-based
compensatory
damages in light of his outstanding
2013 convictions and sentence?



Is Defendant Pima County entitled to
Eleventh Amendment immunity on the
grounds that the State of Arizona,
rather than Pima County, prosecuted
Plaintiff?



Has Plaintiff met the pleading
requirements for asserting Monell
claims?

4. The filing of an application for interlocutory
appeal shall stay the district-court proceedings
in this case.
Dated this 6th day of June, 2017.

/s/ R. Márquez
Honorable Rosemary Márquez
United States District Judge

39a
APPENDIX C
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
_________
LOUIS TAYLOR,
Plaintiff,
v.
COUNTY OF PIMA, ET AL.,
_________

Defendants.

No. CV-15-00152-TUC-RM
_________
ORDER
_________
March 16, 2017
_________
Pending before the Court are Defendants Pima
County and City of Tucson’s Motions to Dismiss
Plaintiff’s Second Amended Complaint (Docs. 54, 55),
which seek dismissal under Rules 8 and 12(b) of the
Federal Rules of Civil Procedure. Plaintiff filed a
Combined Response (Doc. 57), and Defendants filed
Replies (Docs. 60, 61).1

1

Plaintiff filed a Request for Oral Argument (Doc. 62). The
Court finds that the currently pending Motions to Dismiss are
suitable for resolution without oral argument. Accordingly,
Plaintiff’s Request for Oral Argument is denied.

40a
I. Procedural Background
This case arises out of Plaintiff’s arrest, conviction
of 28 counts of murder, and approximately 42-year
imprisonment in connection with a fire that occurred
at the Pioneer Hotel in Tucson, Arizona in December
1970. Plaintiff initiated this action in Pima County
Superior Court, where he filed a First Amended
Complaint raising claims against Pima County and
the City of Tucson under 42 U.S.C. § 1983 and state
tort law. (Doc. 1.) After removing the case to this
Court, Defendants filed Motions to Dismiss
Plaintiff’s First Amended Complaint. (Docs. 5, 6.)
The Court partially granted the Motions to Dismiss
in an Order filed on February 9, 2016. (Doc. 35.) In
that Order, the Court found that Count Five of
Plaintiff’s First Amended Complaint sufficiently pled
a claim against Pima County, but that Plaintiff’s
other claims were not supported by sufficient factual
allegations. The Court also found that Plaintiff’s
claims fell under an exception to Heck v. Humphrey,
512 U.S. 477 (1994), and that they were not barred
by the statute of limitations because they did not
accrue until Plaintiff’s 1972 convictions were vacated
on April 2, 2013.
Defendant Pima County moved for reconsideration
of only “one narrow aspect” of the Court’s February
9, 2016 Order. (Doc. 39 at 1.) Specifically, Pima
County asked the Court to reconsider its holding that
Plaintiff’s claims fell under an exception to Heck,
arguing that the holding had been foreclosed by a
recent Ninth Circuit decision, Lyall v. City of Los
Angeles, 807 F.3d 1178 (9th Cir. 2015). The Court
partially granted the Motion for Reconsideration,

41a
finding that Lyall made it clear that “Plaintiff is
Heck-barred from challenging the validity of his
outstanding 2013 convictions,” and thus withdrawing
the portion of its February 9, 2016 Order finding that
Plaintiff’s claims fell under an exception to Heck.
(Doc. 48 at 2-3.) The Court declined to dismiss
Plaintiff’s compensatory damages claim because “it
would be premature, prior to discovery, to determine
whether Plaintiff can present evidence of
compensable
damages
arising
from
alleged
constitutional violations underlying his 1972
convictions.” (Doc. 48 at 3.)
Plaintiff filed a Second Amended
(“SAC”) on March 14, 2016. (Doc. 40.)

Complaint

II. Allegations of SAC
The allegations of Plaintiff’s SAC are as follows.
Plaintiff, an African American, was arrested by
Tucson Police Department officers on or about
December 20, 1970, in connection with the Pioneer
Hotel fire. (Doc. 40 at 3, ¶¶ 4-5.) Plaintiff was 16
years old at the time. (Id. at 4, ¶ 9.) Plaintiff was
arrested based on his race, before any investigation
had been commenced to determine if the fire was
arson. (Id. at 3, ¶¶ 5-6.) A Caucasian man suspected
of starting three other fires at the Pioneer Hotel was
neither questioned nor investigated. (Id. at 3, ¶ 8.)
After his arrest, Plaintiff was interrogated by at
least eight Tucson Police Department officers over
the course of several hours early in the morning of
December 20, 1970. (Id. at 4, ¶ 9.) Plaintiff denied
starting the hotel fire during a polygraph, and the
polygraph did not indicate deception. (Id.)

42a
Plaintiff was initially charged with trespassing and
arson, but the arson charge was dropped almost
immediately. (Id. at 4, ¶ 10.) Although the deputy
county attorney did not believe there was enough
evidence to charge Plaintiff with any other crimes, at
the urging of the director of the Pima County
Juvenile Court Center, Plaintiff was charged as an
adult with 28 counts of murder before any
investigation had been commenced to determine if
the hotel fire was arson. (Id. at 4-5, ¶¶ 10-13.)
The deputy county attorney assigned to Plaintiff’s
prosecution was Horton Weiss, who was well known
to the Arizona judiciary as an over-zealous and
unethical prosecutor with a record of violating or
potentially
violating
criminal
defendants’
constitutional rights. (Id. at 5-7, ¶¶ 17-21.) The
county attorney was asked to remove Weiss from
Plaintiff’s case due to Weiss’s reputation, but she
refused to do so because she was under pressure to
obtain a conviction given the high-profile nature of
the hotel fire. (Id. at 7, ¶ 22.)
In connection with Plaintiff’s prosecution,
Defendants (1) withheld exculpatory evidence in the
form of a written report known as the “Truesdail”
report, which found that no evidence of accelerants
was discovered during post-fire inspections of the
hotel, (2) presented false testimony from two
jailhouses snitches, including testimony that was
contradicted by the findings of the undisclosed
Truesdail report, and (3) hired an expert who
believed Plaintiff was guilty because “black boys” are
more likely to start fires. (Id. at 5, 8-10, ¶¶ 16, 2333.)

43a
On March 21, 1972, Plaintiff was convicted by an
all-white jury of 28 counts of murder. (Id. at 5, ¶ 15.)
Over forty years later, on October 23, 2012, Plaintiff
filed a Petition for Post-Conviction Relief based in
part on the findings and conclusions of a panel of fire
experts who, after reviewing all of the evidence in
Plaintiff’s case, concluded that the Pioneer Hotel fire
could not be classified as arson. (Id. at 10, ¶¶ 35-36.)
On April 1, 2013, the county attorney stipulated to
Plaintiff’s request for post-conviction relief on the
condition that Plaintiff enter a no-contest plea. (Id.
at 11, ¶ 38.) 2 On April 2, 2013, Plaintiff’s 1972
convictions were vacated, he pled no contest to
charges related to the fire for a stipulated sentence of
time served, and he was released from incarceration.
(Id. at 11, ¶¶ 39-41.)
Plaintiff’s SAC raises six claims under 42 U.S.C.
§ 1983 and three claims under state law.
In Count One, Plaintiff alleges that Defendant City
of Tucson, through its Police Department, had a
custom/practice of racial discrimination against
African Americans that resulted in the violation of
Plaintiff’s constitutional rights. (Id. at 12-18, ¶¶ 118.)3 Plaintiff alleges that only seven out of seven
hundred officers in the Tucson Police Department
2

The county attorney also stipulated that if “a review of the
original evidence using new advances and techniques in fire
investigation is legally ‘newly discovered evidence’ [under Ariz.
R. Crim. P. 32.1(e)]. . . the State would be unable to proceed
with a retrial, and the convictions would not stand.” (Id. at 1011, ¶ 37.)
3

The sequential numbering of the paragraphs of Plaintiff’s
SAC begins anew in Count One.

44a
were African Americans as of 1972. (Id. at 13-14,
¶ 5.) Although the Department received federal
funds in 1970 to recruit more African Americans,
recruitment efforts failed because the Department
used entrance exams that were racially biased
against African Americans and because African
Americans did not trust the Department due to the
Department’s longstanding policy of discrimination.
(Id.) Those African Americans that the Department
did hire confronted stereotypes engrained in the
Tucson Police Department. (Id. at 14, ¶ 6.) Racial
discrimination in the Department led to a practice of
arresting African Americans without probable cause
on the basis of their race and ignoring credible
evidence implicating white suspects. (Id. at 13, 1617, ¶¶ 4, 12-13.)
In Count Two, Plaintiff alleges that Defendant City
of Tucson failed to train and/or supervise its police
employees in deliberate indifference to the
constitutional rights of criminal defendants. (Id. at
18-19, ¶¶ 19-24.) Plaintiff alleges that the failure to
train and supervise is evidenced by the racially
discriminatory customs and practices alleged in
Count One, as well as by “the fact that at least eight
officers interviewed Plaintiff . . . while he was in
custody and his constitutional rights were being
violated, and either knowingly acquiesced to the
violations or were unaware” of them. (Id. at 19, ¶ 23.)
In Count Three, Plaintiff alleges that Defendant
Pima County, through its County Attorney’s Office,
had a custom/practice of racial discrimination
against African Americans that resulted in the
violation of Plaintiff’s constitutional rights. (Id. at
19-21, ¶¶ 25-34.) Plaintiff indicates that Pima

45a
County’s discriminatory policies are evidenced by
incidents described elsewhere in the SAC, including
the allegation that prior to Plaintiff’s trial, Weiss
referred to a white lawyer representing an African
American criminal defendant as a “nigger lover,” and
the allegation that the County Attorney’s Office
prosecuted cases against African Americans with a
presumption of guilt and knowingly elicited
unreliable testimony from “jailhouse snitches and
informants.” (See id. at 7, ¶¶ 20-21.)
In Count Four, Plaintiff alleges that Defendant
Pima County failed to train and/or supervise its
deputy county attorneys, in deliberate indifference to
the constitutional rights of criminal defendants. (Id.
at 21-23, ¶¶ 35-41.) Defendant alleges that the
ethical and constitutional violations committed by
Weiss were obvious to Pima County, but that Pima
County was deliberately indifferent to the violations
because “Weiss was effective in securing convictions,
even when the defendant was innocent.” (Id. at 22,
¶ 38.) Plaintiff further alleges that the county
attorney failed to remove Weiss from Plaintiff’s case
despite a specific request that he be removed,
because the case was high-profile and Weiss was
successful “in securing convictions through ethical
and constitutional violations when there was
insufficient evidence.” (Id.) Earlier in the SAC,
Plaintiff alleges that Weiss was known to train other
county attorneys to use “inherently unreliable”
testimony from “jailhouse snitches . . . when there
was otherwise insufficient evidence to convict.” (Id.
at 7, ¶ 21.)
In Count Five, Plaintiff alleges that, prior to
Plaintiff’s trial, Weiss had demonstrated a

46a
continuing pattern of violating the constitutional
rights of criminal defendants and was well known to
the Arizona judiciary as an over-zealous and
unethical prosecutor. (Id. at 23-25, ¶¶ 42-49.) Pima
County’s failure to terminate Weiss’s employment
prior to Plaintiff’s trial exhibited deliberate
indifference to the constitutional rights of criminal
defendants and caused the violation of Plaintiff’s
constitutional rights. (Id. at ¶¶ 45-47.)
In Count Six, Plaintiff alleges that “certain
employees of both the City of Tucson and Pima
County unlawfully conspired and mutually agreed to
violate” Plaintiff’s constitutional rights, including by
improperly arresting, charging, and prosecuting
Plaintiff; deliberately withholding exculpatory
evidence in the form of the Truesdail Report; and
calling a witness whose testimony was obviously
false and contradicted by the undisclosed Truesdail
Report. (Id. at 25-29, ¶¶ 50-72.) Plaintiff alleges that
Weiss and others, including employees of the Tucson
Fire Department, knew of and/or were in possession
of the Truesdail Report. (Id. at 27, ¶¶ 59-61.)
Plaintiff further alleges that, at the direction of
Weiss, detectives from the Tucson Police Department
went to jail “to induce one or more inmates” to
provide incriminating testimony against Plaintiff
and ultimately produced two witnesses, Bruce
Wallmark and Robert Jackson, who gave false
testimony in violation of Plaintiff’s due process
rights. (Id. at 28-29, ¶¶ 63-68.)
In Counts Seven and Eight, Plaintiff raises statelaw claims for negligence and wrongful arrest
against City of Tucson. (Id. at 30-31, ¶¶ 73-81.) In
Count Nine, Plaintiff raises a state-law malicious

47a
prosecution claim against Pima County. (Id. at 3132, ¶¶ 81-85.)
III.

Standard of Review

A complaint must include a “short and plain
statement . . . showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2). While Rule 8 does not
require in-depth factual allegations, it does require
more than “labels[,] conclusions, [or] a formulaic
recitation of a cause of action’s elements.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009). There must be
sufficient “factual content [to] allow[] the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id.
Dismissal under Rule 12(b)(6) may be “based on the
lack of a cognizable legal theory or the absence of
sufficient facts alleged under a cognizable legal
theory.” Balistreri v. Pacifica Police Dep’t, 901 F.2d
696, 699 (9th Cir. 1990). When reviewing a motion to
dismiss pursuant to Rule 12(b)(6), a court takes “all
factual allegations set forth in the complaint . . . as
true and construed in the light most favorable to
plaintiffs.” Lee v. City of L.A., 250 F.3d 668, 679 (9th
Cir. 2001). However, only well-pleaded facts are
given a presumption of truth. Iqbal, 556 U.S. at 679.
Conclusory allegations—that is, allegations that
“simply recite the elements of a cause of action”
without supplying underlying facts to support those
elements—are not “entitled to the presumption of
truth.” Starr v. Baca, 652 F.3d 1202, 1216 (9th Cir.
2011).
If a complaint falls short of meeting the necessary
pleading standards, a district court should dismiss

48a
with leave to amend unless the deficiencies of a
pleading “could not possibly be cured by the
allegation of other facts.” Lacey v. Maricopa Cnty.,
693 F.3d 896, 926 (9th Cir. 2012) (“We have adopted
a generous standard for granting leave to amend
from a dismissal for failure to state a claim . . . .”).
Failing to give leave to amend when a plaintiff could
include additional facts to cure a complaint’s
deficiencies is an abuse of discretion. AE ex rel.
Hernandez v. Cnty. of Tulare, 666 F.3d 631, 637-38
(9th Cir. 2012).
The Court may “consider certain materials—
documents attached to the complaint, documents
incorporated by reference in the complaint, or
matters of judicial notice—without converting [a]
motion to dismiss into a motion for summary
judgment.” United States v. Ritchie, 342 F.3d 903,
908 (9th Cir. 2003). Judicial proceedings in other
courts are matters of judicial notice and may
appropriately be considered on a motion to dismiss.
See Rosales-Martinez v. Palmer, 753 F.3d 890, 894-95
(9th Cir. 2014).
IV. Discussion
Defendant City of Tucson requests that Counts
One, Two and Six against the City be dismissed with
prejudice. (Doc. 54 at 12.) Defendant Pima County
requests dismissal of all claims alleged against it.
(Doc. 55 at 17.)
A. Claims Under 42 U.S.C. § 1983
Defendants argue that Plaintiff’s § 1983 claims
must be dismissed because they are barred by Heck,
and that any portions not barred by Heck are barred

49a
by the statute of limitations. Defendants further
argue that the claims must be dismissed because
they are not supported by sufficient non-conclusory
factual allegations. In addition, Pima County argues
that it is entitled to Eleventh Amendment immunity
regarding claims premised on the conduct of Weiss or
the County Attorney’s Office in the handling of
Plaintiff’s prosecution. Finally, Pima County argues
that the Court erred in previously finding that
Plaintiff stated a valid municipal liability claim in
Count Five.
1. Law of the Case
Plaintiff argues that this Court has already
rejected Defendants’ contentions regarding Heck and
the statute of limitations, and that Defendants are
precluded from re-litigating those issues because the
Court’s prior resolution of the issues is the law of the
case. The law of the case doctrine “counsels against
reopening questions once resolved in ongoing
litigation.” Pyramid Lake Paiute Tribe of Indians v.
Hodel, 882 F.2d 364, 369 n.5 (9th Cir. 1989).
Nevertheless, “a trial court has discretion to
reconsider its prior, non-final decisions.” Id.; see also
City of L.A., Harbor Div. v. Santa Monica Baykeeper,
254 F.3d 882, 885 (9th Cir. 2001) (so long as district
court retains jurisdiction over case, it has inherent
authority “to reconsider, rescind, or modify an
interlocutory order for cause seen by it to be
sufficient”).4 Reconsideration of a previous ruling is
4

Furthermore, an amended complaint supersedes the
original and may be attacked anew. See Gustavson v. Mars,
Inc., 2014 WL 2604774, at *5 n.3 (N.D. Cal. June 10, 2014); In
re Sony Grand Wega KDF-E A10/A20 Series Real Projection

50a
appropriate where “1) the first decision was clearly
erroneous; 2) an intervening change in the law has
occurred; 3) the evidence on remand is substantially
different; 4) other changed circumstances exist; or 5)
a manifest injustice would otherwise result.” United
States v. Alexander, 106 F.3d 874, 876 (9th Cir.
1997).
In its February 9, 2016 Order resolving
Defendants’ first Motions to Dismiss, the Court
found that Plaintiff’s claims could proceed under an
exception to Heck and that they were not barred by
the statute of limitations because they did not accrue
until April 2013, when Plaintiff’s 1972 convictions
were vacated. (See Doc. 35 at 13-15). However, on
reconsideration, the Court withdrew the portion of
its February 9, 2016 Order finding that Plaintiff’s
claims fell under an exception to Heck. (See Doc. 48
at 2-3). In doing so, the Court held that, in light of
the Ninth Circuit’s decision in Lyall, “it is now clear
that Plaintiff is Heck-barred from challenging his
2013 convictions in this action.” (Id.) This holding
substantially changes the nature of the claims that
Plaintiff may permissibly raise in this action.
In light of the Court’s holding that Plaintiff’s claims
cannot proceed under an exception to Heck, the
Court must now apply Heck in analyzing the § 1983
claims asserted in Plaintiff’s SAC. In addition,
reexamination of the interplay between Heck and the
statute of limitations is appropriate.

HDTV Television Litig., 758 F. Supp. 2d 1077, 1098 (S.D. Cal.
2010); Belshaw v. Credit Bureau of Prescott, 392 F. Supp. 1356,
1360-61 (D. Ariz. 1975).

51a
2. Heck-Bar
A § 1983 damages action is Heck-barred if “a
judgment in favor of the plaintiff would necessarily
imply the invalidity of the plaintiff’s outstanding
criminal conviction or sentence.” Heck, 512 U.S. at
487. As the Supreme Court explained in Heck:
[I]n order to recover damages for allegedly
unconstitutional conviction or imprisonment,
or for other harm caused by actions whose
unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must prove
that the conviction or sentence has been
reversed on direct appeal, expunged by
executive order, declared invalid by a state
tribunal
authorized
to
make
such
determination, or called into question by a
federal court’s issuance of a writ of habeas
corpus, 28 U.S.C. § 2254. A claim for damages
bearing that relationship to a conviction or
sentence that has not been so invalidated is
not cognizable under § 1983.
Id. at 486-87.
As described more fully in the Court’s February 9,
2016 Order resolving Defendants’ first Motions to
Dismiss (see Doc. 35 at 10-13), under certain
circumstances, a § 1983 plaintiff may successfully
challenge the constitutionality of underlying events
that led to an outstanding criminal conviction
without necessarily implying the invalidity of that
conviction. See generally Jackson v. Barnes, 749 F.3d
755 (9th Cir. 2014); Poventud v. City of N.Y., 750
F.3d 121 (2d Cir. 2014) (en banc); Lockett v. Ericson,

52a
656 F.3d 892 (9th Cir. 2011); Ove v. Gwinn, 264 F.3d
817 (9th Cir. 2001). Where an earlier conviction is
vacated or overturned but a subsequent conviction is
outstanding, the plaintiff may bring a § 1983 suit
premised on alleged constitutional violations that
affected the first conviction but did not taint the
subsequent, outstanding conviction. See, e.g.,
Jackson, 749 F.3d at 758, 760-61; Poventud, 750 F.3d
at 136-37.
In all of the SAC’s claims seeking relief under 42
U.S.C. § 1983—Counts One through Six—Plaintiff
alleges that Defendants’ challenged actions or
inactions caused Plaintiff to experience “a profound
deprivation of his civil rights and liberties” in that he
was wrongly charged and convicted of multiple
counts of homicide and spent approximately 42 years
in prison. (See Doc. 40 at 18-19, 21, 23, 25, 29, ¶¶ 17,
24, 33, 41, 49, 72.) In other words, in his SAC,
Plaintiff has tied all of his § 1983 claims to a theory
of constitutional harm that would require him to
prove that he was wrongfully charged and convicted
of, and imprisoned for, 28 counts of felony murder.
Although Plaintiff’s 1972 convictions have been
vacated, in 2013 Plaintiff was again convicted of 28
counts of felony murder and sentenced to time
served. Plaintiff’s 2013 convictions and sentence
have not “been reversed on direct appeal, expunged
by executive order, declared invalid by a state
tribunal authorized to make such determination, or
called into question by a federal court’s issuance of a
writ of habeas corpus.” Heck, 512 U.S. at 486-87.
Success on the merits of the theory of constitutional
harm alleged in Plaintiff’s SAC would necessarily
undermine the validity of Plaintiff’s outstanding

53a
2013 convictions and sentence. See id. at 487. 5
Accordingly, Heck bars Plaintiff from premising his
claims on the alleged constitutional injuries of being
wrongfully charged, convicted, and imprisoned. See
512 U.S. at 487. However, as described more fully
below, Heck does not bar Plaintiff from raising
claims premised on alleged constitutional violations
that affect his 1972 convictions but do not taint his
2013 convictions.
3. Statute of Limitations
In Arizona, a two-year statute of limitations applies
to § 1983 actions. TwoRivers v. Lewis, 174 F.3d 987,
991 (9th Cir. 1999). A § 1983 cause of action accrues
“when the plaintiff has a complete and present cause
of action,” e.g., when the plaintiff is able to “file suit
and obtain relief.” Wallace v. Kato, 549 U.S. 384, 388
(2007) (internal quotation marks omitted). 6 Under
5

In its February 9, 2016 Order resolving Defendants’ first
Motions to Dismiss, the Court noted that an assertion that
Plaintiff was wrongfully convicted in 1972 is not necessarily
inconsistent with his 2013 no-contest plea, because the plea did
not admit factual guilt. (See Doc. 35 at 13.) However, although
Plaintiff’s no-contest plea cannot be used as an admission of
factual guilt, it does represent an agreement by Plaintiff that
his 2013 convictions and sentence are valid. The theory alleged
in Plaintiff’s SAC—that Plaintiff was wrongfully convicted of 28
counts of felony murder and sentenced to approximately 42
years in prison—necessarily implies the invalidity of Plaintiff’s
outstanding 2013 convictions of 28 counts of felony murder and
outstanding sentence of 42 years imprisonment.
6

Although the statute of limitations applicable to a § 1983
action is the limitations period applicable to personal-injury
torts under state law, “the accrual date of a § 1983 cause of
action is a question of federal law and is not resolved by
reference to state law.” Wallace, 549 U.S. at 387-88.

54a
the Heck deferred-accrual rule, “a § 1983 cause of
action
for
damages
attributable
to
an
unconstitutional conviction or sentence does not
accrue until the conviction or sentence has been
invalidated.” Heck, 512 U.S. at 489-90; see also
Wallace, 549 U.S. at 393 (where success in a tort
action would impugn an outstanding criminal
judgment, “the Heck rule for deferred accrual . . .
delays what would otherwise be the accrual date of
[the] tort action until the setting aside” of the
conviction that the action would impugn); RosalesMartinez, 753 F.3d at 896 (same).
The Court previously found that, due to the Heck
rule for deferred accrual, Plaintiff’s claims did not
accrue until Plaintiff’s 1972 convictions were vacated
in 2013, and thus that the statute of limitations did
not bar Plaintiff’s § 1983 action. (Doc. 35 at 15.) This
finding remains true with respect to claims premised
on a theory of wrongful conviction and sentence.
However, because the Ninth Circuit’s decision in
Lyall makes clear that Heck precludes Plaintiff from
premising his claims on a theory that he was
wrongfully convicted and sentenced, the Court now
clarifies its statute-of-limitations analysis to address
the accrual date applicable to other potential
constitutional injuries upon which Plaintiff could
frame his claims.
The Heck deferred accrual rule does not apply to a
claim seeking damages for an arrest without
probable cause in violation of the Fourth
Amendment. See Wallace, 549 U.S. at 390-96. Absent
state tolling rules requiring a different result, the
statute of limitations on such a claim begins to run
“at the time the claimant becomes detained pursuant

55a
to legal process”—for example, when “he is bound
over by a magistrate or arraigned on charges.” Id. at
389, 394-96. A contrary rule would require a “bizarre
extension of Heck” whereby “an action which would
impugn an anticipated future conviction cannot be
brought until that conviction occurs and is set aside.”
Id. at 393-94.
By extension of the Supreme Court’s reasoning in
Wallace, the Heck deferred accrual rule also does not
apply to claims seeking damages for an
unconstitutional interrogation. Such claims accrue at
the time of the allegedly unconstitutional
interrogation. See Johnson v. Johnson Cnty. Comm’n
Bd., 925 F.2d 1299, 1301 (10th Cir. 1991) (“Claims
arising out of police actions toward a criminal
suspect, such as arrest, interrogation, or search and
seizure, are presumed to have accrued when the
actions actually occur.”).7
Accordingly, to the extent that Plaintiff’s
allegations of constitutional harm are premised on
him being wrongfully arrested without probable
cause and/or unlawfully interrogated, the statute of
limitations on such claims expired decades ago. See
Wallace, 549 U.S. at 390-91; Johnson, 925 F.2d at
1301.
7

A different analysis might apply to a § 1983 suit challenging
the admission at trial of evidence obtained as a result of an
allegedly unconstitutional interrogation. However, the Court
need not conduct that analysis here, for Plaintiff’s SAC does not
allege that Plaintiff’s constitutional rights were violated during
his 1972 trial by the admission of evidence obtained as a result
of his allegedly unlawful interrogation. Rather, it alleges that
Plaintiff’s constitutional rights were violated by the allegedly
unlawful interrogation itself.

56a
4. Surviving Claims
The interplay between Heck and the statute of
limitations sharply constrains Plaintiff’s § 1983
claims. Heck bars claims based on allegations that
Plaintiff was wrongfully charged, convicted, and
imprisoned. The statute of limitations bars claims
based on allegations that Plaintiff was arrested
without probable cause and unlawfully interrogated.
However, neither the statute of limitations nor Heck
bars claims based on constitutional violations that
affect the validity of Plaintiff’s 1972 convictions but
not the validity of his subsequent 2013 convictions.
See Jackson, 749 F.3d at 760-61; Poventud, 750 F.3d
at 136-37.
Plaintiff’s SAC alleges that his constitutional
rights, including his rights to due process and to a
fair trial free of racial bias, were violated during his
original trial proceedings by the non-disclosure of the
Truesdail Report, the hiring of an expert who
believed Plaintiff was guilty because “black boys” are
more likely to start fires, and the presentation of
false testimony from two “jailhouse snitches.” These
allegations of constitutional injury implicate the
fairness of Plaintiff’s 1972 trial and the validity of
his 1972 convictions. Accordingly, claims premised
on these allegations of constitutional injury are not
barred by the statute of limitations because, under
the Heck deferred accrual rule, the claims did not
accrue until Plaintiff’s 1972 convictions were
vacated. The claims are not barred by Heck so long
as Plaintiff’s 2013 convictions are untainted by the
alleged constitutional harms.

57a
Plaintiff’s 2013 convictions resulted from Plaintiff’s
no-contest plea. In Lockett, the Ninth Circuit held
that a plaintiff was not Heck-barred from bringing a
§ 1983 action challenging the lawfulness of a search
that led to his arrest, notwithstanding the fact that
the plaintiff was ultimately convicted and the
conviction had not been vacated, because the
plaintiff’s conviction derived from a nolo contendere
plea rather than from a verdict obtained with
allegedly illegally obtained evidence. See 656 F.3d at
895-97. Similarly, in Ove, the Ninth Circuit held that
plaintiffs with outstanding convictions for driving
under the influence based on guilty and nolo
contendere pleas were not Heck-barred from bringing
a § 1983 action challenging the manner in which
their blood was drawn, because the validity of their
outstanding convictions did not depend upon the
legality of the blood draws. 264 F.3d at 821, 823.
However, in Szajer v. City of Los Angeles, the Ninth
Circuit held that a plaintiff with an outstanding
conviction derived from a no-contest plea was Heckbarred from bringing a § 1983 action challenging the
validity of an undercover operation that led to the
discovery of evidence forming the sole factual basis of
the no-contest plea. 632 F.3d 607, 608, 612 (9th Cir.
2011).
At first glance, the decisions in Lockett, Ove, and
Szajer appear to be inconsistent. However, the
decisions are reconcilable if they are understood as
together standing for the proposition that a § 1983
action is Heck-barred when successfully proving the
plaintiff’s § 1983 claims would fatally undermine the
factual basis of an outstanding plea-based conviction,
because under such circumstances the § 1983 action

58a
challenges the validity of the outstanding conviction.
Defendants argue that such circumstances are
present here, because Plaintiff’s § 1983 claims are
inconsistent with the factual basis of his 2013 plea.
For the following reasons, the Court disagrees.
In accepting Plaintiff’s no-contest plea, the Pima
County Superior Court incorporated by reference a
memorandum
filed
by
the
State
(“Plea
Memorandum”). (See Doc. 6-2 at 14; see also Doc. 6-1
at 65-74.) The Plea Memorandum states that
Plaintiff was arrested at the Pioneer Hotel within
hours of discovery of the fire, that he had no
legitimate reason to be at the hotel, and that he gave
inconsistent statements when questioned by hotel
employees
and
police
officers.
The
Plea
Memorandum summarizes testimony presented at
Plaintiff’s original trial, including testimony by hotel
employees David Johnson, Giles Scoggins, and
James Holsinger; Police Officer Louis Adams;
Sergeant Eugene Rossetti; Sergeant H.L. Gassaway;
Detective David Smith; juveniles Bruce Walmark
and Robert Jackson; and expert witnesses called by
both the prosecution and the defense. The Plea
Memorandum explains that Walmark and Jackson
both testified that Plaintiff admitted to them that he
had started the fire, but that Jackson “later recanted
his testimony and claimed police coercion.” The Plea
Memorandum also explains that expert witnesses for
both the prosecution and the defense testified at
Plaintiff’s original trial that the fire was arson, but
that this testimony is inconsistent with more recent
findings by the Arson Review Committee and the
Tucson Fire Department, both of which concluded—
after reviewing the evidence using current fire

59a
investigation
methodology—that
determination is not possible.

a

fire-cause

As an initial matter, it is not clear that the Plea
Memorandum is admissible as evidence in this case.
See Fed. R. Evid. 410(a). 8 However, Ninth Circuit
authority supports Defendants’ contention that the
Plea Memorandum should be considered in the
context of a Heck analysis. See Szajer, 632 F.3d at
612 (considering factual basis for plea as part of Heck
analysis); Rosales-Martinez, 753 F.3d at 899
(suggesting district court may wish to consider, as
part of Heck analysis, whether facts allocuted to in
plea were inconsistent with allegations in § 1983
action). Accordingly, the Court has compared the
facts set forth in the Plea Memorandum with the
factual allegations of Plaintiff’s SAC.
Plaintiff’s challenges to the fairness of his 1972
trial—specifically, the withholding of the Truesdail
Report, the hiring of an expert who believed “black
boys” are more likely to start fires, and the
presentation of “jailhouse snitch” testimony—do not
necessarily undermine the factual basis of his 2013
plea such that they call into doubt the validity of
Plaintiff’s 2013 convictions. Plaintiff’s allegation that
Defendants presented false “jailhouse snitch”
testimony is actually consistent with the Plea
Memorandum, which specifically notes that Jackson
recanted his trial testimony and claimed police
8

In its Reply in Support of Motion to Dismiss Second
Amended Complaint, Pima County states that the Plea
Memorandum is not subject to the constraints of Rule 410, but
it does not provide any specific arguments to support this
statement. (Doc. 61 at 7.)

60a
coercion. Accordingly, successfully proving Plaintiff’s
allegation that Defendants knowingly presented
false testimony from Jackson during Plaintiff’s 1972
trial would not undermine the factual basis of
Plaintiff’s 2013 plea. Likewise, successfully proving
Plaintiff’s allegation that Defendants hired an expert
who believed Plaintiff was guilty because “black
boys” are more likely to start fires would not
undermine the factual basis of Plaintiff’s 2013 plea;
the Plea Memorandum specifies that the prosecution
expert’s trial testimony is contradicted by more
recent findings of the Arson Review Committee and
the Tucson Fire Department, and thus the factual
basis of Plaintiff’s 2013 plea cannot hinge on the
accuracy of the expert witness’s testimony at
Plaintiff’s original trial. Finally, Plaintiff’s allegation
that the Truesdail Report was exculpatory and
should have been disclosed to him during his original
trial proceedings does not undermine the validity of
Plaintiff’s 2013 convictions. Plaintiff was aware of
the Truesdail report at the time of his 2013 plea, and
thus his 2013 convictions are untainted by the
alleged Brady violation. See Poventud, 750 F.3d at
136-37. Contrary to Defendants’ arguments, the Plea
Memorandum does not conclusively establish that
the Truesdail Report was inculpatory. Whether the
Truesdail Report was inculpatory or exculpatory is
not an issue appropriate for resolution at this stage
of the proceedings.
In conclusion, neither Heck nor the statute of
limitations requires dismissal of Counts One through
Six of Plaintiff’s SAC to the extent that those claims
are construed as alleging that Plaintiff’s rights to
due process and a constitutionally fair, racially

61a
unbiased trial were violated during his original trial
proceedings by the non-disclosure of the Truesdail
Report, the hiring of an expert who believed Plaintiff
was guilty because “black boys” are more likely to
start fires, and the presentation of false testimony
from two “jailhouse snitches.” The Court now turns
to the issue of whether the claims alleged in
Plaintiff’s SAC, so construed, satisfy the pleading
standards of Rule 8.
Defendants’ arguments regarding the sufficiency of
the SAC’s factual allegations conflate, to some
extent, the standard for pleading claims with the
standard for proving claims. With respect to Counts
One, Three, and Six, the new factual content
contained in Plaintiff’s SAC—assumed to be true for
purposes of evaluating a motion to dismiss—is
sufficient to permit a reasonable inference that a
custom or practice of racial discrimination existed in
the City of Tucson Police Department and the Pima
County
Attorney’s
Office,
and
that
this
custom/practice, in combination with pressure to
secure a conviction in a high-profile case, caused the
Defendants to conspire to violate Plaintiff’s
constitutional rights by withholding the Truesdail
report and knowingly presenting false “jailhouse
snitch” testimony. Accordingly, the Court declines to
dismiss Counts One, Three, and Six of Plaintiff’s
SAC.
Plaintiff’s SAC also contains sufficient factual
content to support the failure-to-train claim
contained in Count Four. Plaintiff alleges that Pima
County employees were trained to secure convictions
even where there was insufficient evidence of guilt
by using ethically and constitutionally suspect

62a
methods,
including
the
procurement
and
presentation of unreliable “jailhouse snitch”
testimony. Plaintiff has pleaded factual content that
identifies specific deficiencies in Pima County’s
training and supervision of employees and connects
those deficiencies to permissible allegations of
constitutional injury. Accordingly, the Court declines
to dismiss Count Four. However, the Court will
grant Defendant City of Tucson’s Motion to Dismiss
with respect to Count Two, because Plaintiff’s SAC
does not contain sufficient non-conclusory factual
allegations to (1) identify specific deficiencies in the
City of Tucson’s training and supervision of
employees, and (2) connect those deficiencies to
allegations of constitutional injury that do not run
afoul of either Heck or the statute of limitations.
The Court found in its February 9, 2016 Order that
Count Five sufficiently states a claim. Pima County
argues that this Court’s prior decision not to dismiss
Count Five was clearly erroneous because Pima
County cannot be held liable under § 1983 for failing
to terminate Weiss in deliberate indifference to
Weiss’s prosecutorial misconduct. 9 Pima County
relies upon Hounshell v. White, 220 Ariz. 1, 5 (App.
2008), for the proposition that it has no authority to
hire or terminate deputy county attorneys and no
authority or control over the training provided to
them. (See Doc. 55 at 9 n.3, 11.)10 Hounshell and the
9

Pima County could have, but did not, raise this argument in
its Motion for Reconsideration (Doc. 39).
10

In addition, Pima County cites to Lacey for the proposition
that administrative hiring and training decisions regarding
prosecutors are not actionable against a county. (See Doc. 55 at

63a
statutory provisions cited therein do not provide
adequate support for Pima County’s contentions.
Although Hounshell indicates that a county attorney
has the sole authority to dismiss or discipline deputy
county attorneys, it does not hold that a county has
no control over the hiring or training of deputy
county attorneys. Indeed, pursuant to A.R.S. § 11409, the county board of supervisors must consent to
the county attorney’s appointment of deputy county
attorneys. Furthermore, Hounshell does not indicate
that counties lack the ability to establish policies,
customs, and practices concerning the hiring, firing,
training, and supervision of deputy county attorneys,
nor does it hold that a county is immune from § 1983
liability with respect to such policies, customs, and
practices. Plaintiff’s SAC contains sufficient factual
content from which a reasonable inference could be
drawn that Pima County had a deliberately
indifferent practice or custom of hiring and retaining
deputy county attorneys who secured convictions
through unethical and unconstitutional tactics, and
that this practice or custom caused the violation of
Plaintiff’s constitutional rights. Pima County has not
shown that the factual allegations of Plaintiff’s SAC
are insufficient to state a municipal liability claim in
Count Five.
Pima County further argues that it is entitled to
Eleventh Amendment immunity because the acts of
Weiss and the County Attorney’s Office in the course
11 (citing Lacey, 693 F.3d at 929).) The cited portion of Lacey
discusses cases holding that district attorneys’ hiring decisions
are administrative in nature and not shielded by absolute
prosecutorial immunity. Lacey “express[ed] no view on the
merits” of any municipal liability claims. See 693 F.3d at 940.

64a
of Plaintiff’s prosecution were taken on behalf of the
state. “[T]he Eleventh Amendment does not extend
to counties.” Eason v. Clark Cnty. School Dist., 303
F.3d 1137, 1141 (9th Cir. 2002). Pima County cites to
two unpublished district court decisions for the
proposition that Eleventh Amendment immunity
may extend to counties “where the conduct
complained of involved the acts of county prosecutors
exercising prosecutorial functions on behalf of the
State.” (Doc. 55 at 13-14 (citing Nazir v. Cty. of L.A.,
2011 WL 819081, at *8 (C.D. Cal. Mar 2, 2011); Neri
v. Cty. of Stanislaus Dist. Atty’s Office, 2010 WL
3582575, at *3 (E.D. Cal. Sept. 9, 2010).) The Court
interprets these cases as applying the rule that a
county cannot be liable under § 1983 for the actions
of state, rather than county, policymakers. See
McMillan v. Monroe Cnty., 520 U.S. 781, 783 (1997).
This rule is relevant only to the extent that
Plaintiff’s claims hinge upon a final policymaker
theory of Monell liability. See McMillan, 520 U.S. at
796. Plaintiff’s SAC does not expressly rely upon
such a theory. To the extent that any of Plaintiff’s
claims do hinge upon such a theory, Pima County
has not shown that a county attorney acts as a state
policymaker under Arizona law. See Jett v. Dall
Indep. Sch. Dist., 491 U.S. 701, 737 (1989) (“whether
a particular official has final policymaking authority
is a question of state law”). The cases cited by Pima
County do not apply Arizona law on this issue, and
Ninth Circuit precedent supports finding that an
Arizona county prosecutor can act as a final county
policymaker in certain circumstances. See, e.g., Gobel
v. Maricopa Cnty., 867 F.2d 1201, 1208-09 (9th Cir.
1989) (finding that plaintiffs may be able to prove
“that in Arizona the county attorney is the kind of

65a
county official whose policy decisions automatically
constitute county policy”), abrogated on other
grounds by Merritt v. Cnty. of L.A., 875 F.2d 765 (9th
Cir. 1989).11
Defendants also argue that Plaintiff’s claim for
compensatory damages must be dismissed with
prejudice because Plaintiff’s outstanding 2013
convictions and time-served sentence preclude
Plaintiff from obtaining compensatory damages for
any time he spent in prison. Defendants are correct
that Plaintiff is not entitled to compensatory
damages for the time he spent incarcerated. See
Jackson, 749 F.3d at 762; Olsen v. Correiro, 189 F.3d
52, 66-70 (1st Cir. 1999) (plaintiff not entitled to
incarceration-based damages in § 1983 lawsuit
challenging actions in criminal proceedings
underlying murder conviction where, after murder
conviction was overturned, plaintiff pled nolo
contendere to manslaughter and was sentenced to
time served). However, dismissal of Plaintiff’s
compensatory damages claim is inappropriate at this
stage of the proceedings because Plaintiff may be
able
to
establish
non-incarceration-based
compensatory damages. See Olsen, 189 F.3d at 56-57,
71
(although
precluded
from
recovering
incarceration-based
damages,
plaintiff
could
nevertheless recover compensatory damages for
injuries associated with his first, overturned murder

11

More recent Ninth Circuit precedent has called Gobel into
doubt. See Weiner v. San Diego Cnty., 210 F.3d 1025, 1031 (9th
Cir. 2000). However, the Arizona Supreme Court has assumed
the correctness of Gobel. See City of Phx v. Yarnell, 909 P.2d
377, 387 (Ariz. 1995) (en banc).

66a
trial and conviction, such as attorney fees expended
in that trial and/or damages for emotional injury not
resulting from incarceration).
B. State-Law Claims
Defendant Pima County’s Motion to Dismiss argues
that the malicious prosecution claim in Count Nine
of Plaintiff’s SAC must be dismissed. In his
Combined Response to Defendants’ Motions to
Dismiss, Plaintiff concedes that Count Nine is barred
because no notice of claim was filed. Accordingly,
Count Nine will be dismissed with prejudice.
Defendants’ Motions to Dismiss do not make any
specific arguments concerning the state-law claims
asserted in Counts Seven and Eight, and the City of
Tucson does not specifically request dismissal of
Counts Seven and Eight. (See Doc. 54 at 12
(requesting dismissal of Counts One, Two, and Six).)
Accordingly,
IT IS ORDERED that Defendants’ Motions to
Dismiss Plaintiff’s Second Amended Complaint
(Docs. 54, 55) are granted in part and denied in
part as follows:
1. Count Four of Plaintiff’s Second Amended
Complaint is dismissed without prejudice.
2. Count Nine of Plaintiff’s Second Amended
Complaint is dismissed with prejudice.
3. Defendants’ Motions to Dismiss are otherwise
denied, but the allegations of constitutional
injury and the compensable damages claim of
Plaintiff’s Second Amended Complaint are

67a
constrained by the limitations set forth in this
Order.
Dated this 16th day of March, 2017.

/s/ R. Márquez
Honorable Rosemary Márquez
United States District Judge

68a
APPENDIX D
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
_________
LOUIS TAYLOR,
Plaintiff,
v.
PIMA, COUNTY OF, ET AL.,
_________

Defendants.

No. CV-15-00152-TUC-RM
_________
ORDER
_________
June 1, 2016
_________
Pending before the Court is Defendant Pima
County’s Motion for Reconsideration (Doc. 39). For
the reasons that follow, the Court will partially grant
Defendant’s Motion.
I. Motion for Reconsideration of Prior Order
In a prior Order (Doc. 35) ruling on Defendants’
Motions to Dismiss (Docs. 5, 6), the Court relied on
Justice Souter’s concurring opinion and Justice
Stevens’ dissenting opinion in Spencer v. Kemna, 523
U.S. 1 (1998), as well as the Ninth Circuit’s opinion
in Nonnette v. Small, 316 F.3d 872 (9th Cir. 2002), in
finding that an exception to Heck v. Humphrey, 512

69a
U.S. 477 (1994), applied in the above-entitled action.
(Doc. 35 at 13-15.) Specifically, the Court found that,
because Plaintiff Louis Taylor’s release from
incarceration prevented him from seeking habeas
relief under 28 U.S.C. § 2254 with respect to his 2013
convictions, Plaintiff could pursue claims under 42
U.S.C. § 1983 in this action even if success on those
claims would necessarily imply the invalidity of his
2013 convictions. (Id. at 14-15.) As a result of this
finding, the Court rejected Defendants’ argument
that
Plaintiff
is
precluded
from
seeking
compensatory damages for the 42 years he spent in
prison. (Id. at 15.)
In its Motion for Reconsideration, Defendant Pima
County asks the Court to reconsider its holding that
Plaintiff may seek compensatory damages for his 42year imprisonment. Defendant argues that the
exception to Heck previously relied upon by the
Court has been foreclosed by the Ninth Circuit’s
recent decision in Lyall v. City of Los Angeles, 807
F.3d 1178 (9th Cir. 2015), which was issued after the
completion of briefing on Defendants’ Motions to
Dismiss.
II. Analysis
“[A]bsent highly unusual circumstances,” a motion
for reconsideration should be granted only if “the
district court is presented with newly discovered
evidence, committed clear error, or if there is an
intervening change in the controlling law.” Kona
Enters., Inc. v. Estate of Bishop, 229 F.3d 877, 890
(9th Cir. 2000); see also LRCiv 7.2(g) (“The Court will
ordinarily deny a motion for reconsideration of an
Order absent a showing of manifest error or a

70a
showing of new facts or legal authority that could not
have been brought to its attention earlier with
reasonable diligence.”). At the time the parties
completed their briefing on Defendants’ Motion to
Dismiss in this case, the law was unsettled as to
whether Heck bars § 1983 claims challenging an
outstanding conviction if the § 1983 plaintiff never
had an opportunity to challenge the conviction in a
§ 2254 habeas petition. However, Lyall has since
resolved that question in a manner irreconcilable
with this Court’s prior ruling. Accordingly,
reconsideration of the Court’s prior ruling is
appropriate.
In Lyall, the Ninth Circuit held that the narrow
exception to Heck recognized in Spencer and
Nonnette does not apply to § 1983 claims challenging
an underlying conviction, even in cases in which the
§ 1983 plaintiff is unable to pursue § 2254 habeas
relief through no fault of his own. Lyall, 807 F.3d at
1192, 1192 n.12. In light of Lyall, the Court
withdraws the portion of its prior Order (Doc. 35)
finding that an exception to Heck applies in this case.
Pursuant to Lyall, it is now clear that Plaintiff is
Heck-barred from challenging his 2013 convictions in
this action.
The remaining issue is whether Plaintiff’s inability
to challenge the validity of his 2013 convictions
precludes him from seeking compensatory damages.
Defendants do not seek reconsideration of the
Court’s prior ruling that Plaintiff may pursue some
claims related to his 1972 convictions without
necessarily implying the invalidity of his 2013
convictions. However, Defendant Pima County
argues in its Motion to Reconsider that Plaintiff is

71a
barred from seeking compensatory damages with
respect to those claims, because an award of
compensatory damages would necessarily imply the
invalidity of his 2013 time-served sentence. The
Court finds that it would be premature, prior to
discovery, to determine whether Plaintiff can present
evidence of compensable damages arising from
alleged constitutional violations underlying his 1972
convictions. Accordingly, the Court rejects Defendant
Pima County’s argument that Plaintiff’s claim for
compensatory damages must be dismissed in its
entirety at this early stage of the proceedings.
IT IS ORDERED that Defendant Pima County’s
Motion for Reconsideration (Doc. 39) is granted in
part and denied in part as follows:
1. The Motion is granted to the extent it seeks
reconsideration of the Court’s prior finding
that an exception to Heck applies in this §
1983 action. The Court withdraws the
portion of its February 9, 2016 Order (Doc. 35)
finding an exception to Heck pursuant to
Spencer and Nonnette. Specifically, the Court
withdraws the discussion beginning at page
13, line 17 and ending at page 15, line 6 of the
Order (Doc. 35). In light of Lyall, it is now
clear that Plaintiff is Heck-barred from
challenging the validity of his outstanding
2013 convictions.
2. Defendant Pima County’s Motion for
Reconsideration is denied to the extent it
requests dismissal of Plaintiff’s claim for
compensatory damages.

72a
Dated this 1st day of June, 2016.

/s/ R. Márquez
Honorable Rosemary Márquez
United States District Judge

73a
APPENDIX E
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
_________
LOUIS TAYLOR,
Plaintiff,
v.
PIMA, COUNTY OF, ET AL.,
_________

Defendants.

No. CV-15-00152-TUC-RM
_________
ORDER
_________
February 8, 2016
_________
Plaintiff Louis Taylor sues Defendants City of
Tucson and Pima County under 42 U.S.C. § 1983.
Pending before the Court are Defendants’ Motions to
Dismiss (Docs. 5, 6), and Plaintiff’s Motion for Leave
to File Supplemental Response to Defendants’
Motions to Dismiss (Doc. 31). The Court has
considered Plaintiff’s Supplemental Response (Doc.
30) and Defendants’ Replies to the Supplemental
Response (Docs. 32, 34). The Court will grant leave
to file the Supplemental Response and the
Supplemental Replies, and will consider all to have
been properly filed.

74a
I. Standard of Review
Rule 8 of the Federal Rules of Civil Procedure
requires a pleading to contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” Fed. R. Civ. P. 8(a)(2). While this
pleading standard does not demand “detailed factual
allegations,” it requires more than labels,
conclusions, “and a formulaic recitation of the
elements of a cause of action.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007); see also Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (“Threadbare
recitals of a cause of action, supported by mere
conclusory statements, do not suffice.”). A complaint
must tender more than “naked assertions devoid of
further factual enhancement.” Iqbal, 556 U.S. at 678
(internal quotation and alteration omitted). Rule 8
“does not unlock the doors of discovery for a plaintiff
armed with nothing more than conclusions.” Id. at
678-79. “While legal conclusions can provide the
framework of a complaint, they must be supported by
factual allegations.” Id. at 679.
To survive a Rule 12(b)(6) motion to dismiss, “a
complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Id. at 678 (quoting Twombly,
550 U.S. at 570). In other words, the complaint’s
“non-conclusory factual content, and reasonable
inferences from that content, must be plausibly
suggestive of a claim entitling the plaintiff to relief.”
Moss v. U.S. Secret Serv., 572 F.3d 962, 969 (9th Cir.
2009) (internal quotation omitted). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable

75a
inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678.
A court evaluating a motion to dismiss must view
the complaint “in the light most favorable to the
plaintiff.” Abramson v. Brownstein, 897 F.2d 389,
391 (9th Cir. 1990). All well-pleaded factual
allegations of the complaint must be accepted as
true, but the same does not apply to legal conclusions
couched as factual allegations. Iqbal, 556 U.S. at
678-79.
II. Allegations of Plaintiff’s First Amended
Complaint
Plaintiff filed his First Amended Complaint in
Pima County Superior Court on February 10, 2015,
naming Pima County and the City of Tucson as
Defendants. (Doc. 1-3, First Amended Complaint.) In
the First Amended Complaint, Plaintiff alleges that
he was arrested by Tucson Police Department
officers on December 20, 1970, in connection with a
fire that had occurred at the Pioneer Hotel in
Tucson. (Id. at ¶ 7.) Plaintiff, an African American,
alleges that he was arrested “based at least in part
on his race.” (Id. at ¶ 8.) Plaintiff further alleges that
he was arrested before any investigation of the fire
had been commenced to determine if the fire was
caused by arson. (Id. at ¶¶ 9, 17.)1 Plaintiff states
that no adequate and scientifically reliable evidence
proves that the fire was caused by arson, and thus
there is insufficient evidence to show that any crime
1

The Tucson Fire Department conducted an investigation
into the fire in the weeks and/or months after it occurred. (Id.
at ¶ 17.)

76a
was committed. (Id. at ¶ 10.) If the fire was arson,
however, Plaintiff alleges that he should not have
been a primary suspect. (Id. at ¶ 13.) Rather, the
primary suspect should have been a man named
Donald Anthony, who was the suspect in three prior
fires, thought to be arson, that had recently occurred
at the Pioneer Hotel. (Id. at ¶¶ 11-13.)
After his arrest, Plaintiff was interrogated by
Tucson Police Department officers for several hours
in the early morning of December 20, 1970. (Id. at
¶ 14.) Near the end of the interrogation, Plaintiff
requested and was given a polygraph, during which
he denied starting the Pioneer Hotel fire. (Id. at
¶ 15.) The polygraph did not indicate deception. (Id.
at ¶ 16.) Despite the polygraph results and the
existence of a known arson suspect in other recent
fires at the hotel, and before any investigation had
been commenced to determine if the fire was arson,
Plaintiff was charged with 28 counts of murder. (Id.
at ¶¶ 16-17.) Deputy Pima County Attorney Horton
Weiss was assigned to Plaintiff’s prosecution. (Id. at
¶ 21.)2 Plaintiff alleges that, by the time of his trial,
Weiss was well-known to be an over-zealous and
unethical prosecutor whose prior misconduct
involved violating or potentially violating criminal
defendants’ constitutional rights. (Id. at ¶¶ 22-23.)3

2

Plaintiff alleges that the Tucson Fire Department, the
Tucson Police Department, and the Pima County Attorney’s
Office worked together on his prosecution. (Id. at ¶ 18.)
3

In support of this allegation, Plaintiff cites to several cases
in which Weiss’s prosecutorial conduct was at issue. (See id. at
¶¶ 22, 24.)

77a
Plaintiff alleges that Defendants violated and
conspired to violate his clearly established federal
constitutional rights during and after his trial. (Id. at
¶¶ 20, 34-36.) First, Plaintiff alleges that Defendants
withheld exculpatory evidence in violation of Brady
v. Maryland, 373 U.S. 83 (1963); specifically, he
alleges that they withheld a written report, known as
the Truesdail report, stating that no evidence of
accelerants was discovered during post-fire
inspections. (Doc. 1-3 at ¶¶ 25-27, 30.) Plaintiff
alleges that this Brady violation was compounded by
Defendants’ presentation of false testimony from a
jailhouse snitch, Robert Jackson. (Id. at ¶¶ 28-29, 3132.) Jackson—who was called as a rebuttal witness
at the very end of the trial—testified that Plaintiff
had admitted using an accelerant to start the
Pioneer Hotel fire. (Id. at ¶¶ 28-29, 31-32.)
On March 21, 1972, Plaintiff was convicted of 28
counts of murder by an all-white jury. (Id. at ¶ 19.)
On October 23, 2012, he filed a Petition for PostConviction Relief. (Id. at ¶ 39.) In the Petition,
Plaintiff detailed the findings and conclusions of a
panel of fire experts that, after reviewing all
evidence in the case, concluded that the Pioneer
Hotel fire could not be classified as arson. (Id. at
¶ 40.) The Pima County Attorney stipulated that, if
“a review of the original evidence using new
advances and techniques in fire investigation is
legally ‘newly discovered evidence’ . . . the State
would be unable to proceed with a retrial, and
[Plaintiff’s] convictions would not stand.” (Id. at
¶ 42.) The Pima County Attorney then stipulated to
Plaintiff’s request for post-conviction relief on the
condition that Plaintiff enter a “no contest” plea. (Id.)

78a
On April 2, 2013, while maintaining his innocence,
Plaintiff pled “no contest” to charges related to the
fire, on the condition that he serve no additional time
in prison for the new convictions. (Id. at ¶ 44.) On
the same date, Plaintiff’s March 1972 convictions
were vacated, and he was released from prison after
having served approximately 42 years of
incarceration. (Id. at ¶¶ 43, 45.)
Plaintiff raises claims under 42 U.S.C. § 1983
asserting municipal liability for customs/practices of
racial
discrimination,
inadequate
training/supervision of employees, failure to
terminate
Prosecutor
Weiss
in
deliberate
indifference to the constitutional rights of criminal
defendants, and conspiracy to violate his
constitutional rights.
III. Analysis
In their Motions to Dismiss, Defendants argue that
Plaintiff’s First Amended Complaint should be
dismissed on numerous grounds. They argue that the
complaint contains insufficient non-conclusory
factual allegations to support Plaintiff’s claims of
racial discrimination, failure to train/supervise,
failure to terminate Weiss, and civil conspiracy.
Defendant Pima County argues that it cannot be
held liable for Weiss’s conduct. In addition,
Defendants argue that Plaintiff’s complaint must be
dismissed pursuant to Heck v. Humphrey, 512 U.S.
477 (1994). They also argue that Plaintiff cannot
prove compensatory damages, that he cannot obtain
punitive damages from municipalities, and that his
claims are barred by the statute of limitations and
the doctrine of collateral estoppel.

79a
A. Sufficiency of Allegations: Counts One
and Three
A municipality may be liable under 42 U.S.C.
§ 1983 “if the governmental body itself subjects a
person to a deprivation of rights or causes a person
to be subjected to such a deprivation.” Connick v.
Thompson, 563 U.S. 51, 60 (2011) (internal
quotations omitted). “Respondeat superior or
vicarious liability will not attach under § 1983.” City
of Canton v. Harris, 489 U.S. 378, 385 (1989).
Because a municipality can be held responsible
under § 1983 “only where the municipality itself
causes the constitutional violation at issue,” id.,
plaintiffs seeking to impose § 1983 liability on local
governments must show that the challenged acts
were taken “‘pursuant to official municipal policy,’”
Connick, 563 U.S. at 60 (quoting Monell v. Dep’t of
Soc. Servs., 436 U.S. 658, 691 (1978)). “Official
municipal policy includes the decisions of a
government’s
lawmakers,
the
acts
of
its
policymaking officials, and practices so persistent
and widespread as to practically have the force of
law.” Id. at 61. “A policy of inaction or omission may
be based on failure to implement procedural
safeguards to prevent constitutional violations,” but
a plaintiff alleging Monell liability based on a policy
of inaction must show, in addition to a constitutional
violation, that the municipality’s policy of inaction
“amounts to deliberate indifference” to constitutional
rights and that the municipality could have
prevented the constitutional violation with an
appropriate policy. Tsao v. Desert Palace, Inc., 698
F.3d 1128, 1143 (9th Cir. 2012).

80a
In Count One of his First Amended Complaint,
Plaintiff alleges that the City of Tucson, prior to and
at all times relevant to his arrest and prosecution in
the 1970s, “had a pervasive long-standing
custom/practice of racial discrimination against
African Americans” that caused the deprivation of
his constitutional rights, including his due process
rights, and caused him to be wrongfully charged and
convicted of multiple counts of homicide. (Doc. 1-3 at
¶ 54, 57-58.) In Count Three, he alleges the same
with respect to Pima County. (Id. at ¶ 66, 69-70.)
Plaintiff’s allegation that he was arrested at least in
part based on his race lends some support to Count
One, but Plaintiff fails to allege non-conclusory
factual content linking his arrest to any policy or
custom of racial discrimination on the part of
Defendant City of Tucson. Similarly, in Count Three,
Plaintiff fails to offer any non-conclusory factual
allegations linking the constitutional violations that
he alleges occurred during his trial to any policy or
custom of racial discrimination on the part of
Defendant Pima County. Accordingly, Counts One
and Three fail to state § 1983 claims upon which
relief can be granted.
B. Sufficiency of Allegations: Counts Two
and Four
“In limited circumstances, a local government’s
decision not to train certain employees about their
legal duty to avoid violating citizens’ rights may rise
to the level of an official government policy for
purposes of § 1983.” Connick, 563 U.S. at 61.
However, “[a] municipality’s culpability for a
deprivation of rights is at its most tenuous where a

81a
claim turns on a failure to train.” Id. A plaintiff
seeking to hold a municipality liable under § 1983 for
inadequate employee training must show that the
constitutional injury that he suffered is “closely
related” to an “identified deficiency” in the
municipality’s training program. City of Canton, 489
U.S. at 391. Further, a municipality can be held
liable under § 1983 for inadequate training “only
where the failure to train amounts to deliberate
indifference to the rights of persons with whom” the
municipality’s employees come into contact. Id. at
388.4 “Deliberate indifference is a stringent standard
of fault, requiring proof that a municipal actor
disregarded a known or obvious consequence of his
action.” Connick, 563 U.S. at 61 (internal quotation
and alteration omitted). “A pattern of similar
constitutional violations by untrained employees is
ordinarily necessary to demonstrate deliberate
indifference for purposes of failure to train.” Id. at 62
(internal quotation omitted).
In Count Two of his First Amended Complaint,
Plaintiff alleges that his civil rights and liberties
were violated as a result of Defendant City of
Tucson’s failure “to train” and/or “supervise its police
employees.” (Doc. 1-3 at ¶¶ 62-63.) In Count Four,
Plaintiff alleges that his civil rights and liberties
were violated as a result of Defendant Pima County’s
failure “to train” and/or “supervise” its employees,
4

The same “deliberate indifference” standard governing
claims for inadequate training has also been applied to claims
for inadequate supervision and hiring. See, e.g., Davis v. City of
Ellensburg, 869 F.2d 1230, 1235 (9th Cir. 1989) (inadequate
supervision); Benavides v. Cnty. of Wilson, 955 F.2d 968, 974-75
(5th Cir. 1992) (inadequate hiring).

82a
including its “Deputy County attorneys.” (Id. at
¶¶ 74-75, 78.) Plaintiff does not identify any specific
deficiencies in Defendants’ training or supervision of
employees. 5 Because Plaintiff has failed to allege
factual content showing that he suffered
constitutional deprivations closely related to
identified deficiencies in Defendants’ training and
supervision of employees, Counts Two and Four fail
to state § 1983 claims upon which relief can be
granted.
C. Sufficiency of Allegations: Count Five
In Count Five of his First Amended Complaint,
Plaintiff alleges that Pima County’s failure to
terminate Weiss’s employment prior to Plaintiff’s
trial constituted deliberate indifference to the
constitutional rights of criminal defendants and
caused Plaintiff to be wrongfully charged and
convicted of multiple counts of homicide. (Doc. 1-3 at
¶ 81, 84.) Defendant Pima County argues that
Plaintiff fails to allege non-conclusory factual content
sufficient to support this claim. The Court disagrees.
Plaintiff alleges that, prior to his trial, Weiss “had
demonstrated a continuing pattern of violating the
constitutional rights of criminal defendants” and was
well-known to the Arizona judiciary as “an overzealous and unethical prosecutor who habitually
practiced on the edge of, and often beyond, what was
ethically and constitutionally proper.” (Id. at ¶ 80.)
5

Though Plaintiff does not identify the specific
constitutional rights that he alleges were violated as a result of
Defendants’ alleged failure to train/supervise, it appears from
the other allegations of his complaint that he is alleging
violation of his due process rights.

83a
Based on these factual allegations, reasonable
inferences could be drawn that Pima County knew or
should have known that continued employment of
Weiss as a Deputy County Attorney posed a danger
of violating the constitutional rights of criminal
defendants, that Pima County was deliberately
indifferent to that danger, and that Pima County’s
deliberate indifference caused a deprivation of
Plaintiff’s constitutional rights.6
D. Sufficiency of Allegations: Count Six
“A civil conspiracy is a combination of two or more
persons who, by some concerted action, intend to
accomplish some unlawful objective for the purpose
of harming another which results in damage.” Lacey
v. Maricopa Cnty., 693 F.3d 896, 935 (9th Cir. 2012)
(internal quotation omitted). “Conspiracy is not itself
a constitutional tort under § 1983.” Id. Allegations of
a conspiracy do “not enlarge the nature of the
[§ 1983] claims asserted by the plaintiff, as there
must always be an underlying constitutional
violation.” Id.
In Count Six of his First Amended Complaint,
Plaintiff alleges that Defendants’ employees
“unlawfully conspired and mutually agreed to violate
Plaintiff Taylor’s constitutional rights.” (Doc. 1-3 at
¶ 86.) To bring this claim under the umbrella of
Monell liability, Plaintiff alleges that the

6

Though Plaintiff does not identify the specific constitutional
rights that he alleges were violated as a result of Defendants’
alleged failure to terminate Weiss, it appears from the other
allegations of his complaint that he is alleging violation of his
due process rights.

84a
conspiratorial conduct of Defendants’ employees
directly resulted from Defendants’ “unconstitutional,
racially discriminatory policies or customs.” (Doc 1-3
at ¶ 87.) Because Plaintiff’s conspiracy claim is
premised on the same allegations of racially
discriminatory customs/practices at issue in Counts
One and Three, and the Court has determined that
the conclusory allegations of Counts One and Three
are insufficient to state a § 1983 claim for racially
discriminatory customs/practices, “a conspiracy claim
predicated upon the same allegations” fails. See
Cassettari v. Nevada Cnty., Cal., 824 F.2d 735, 739
(9th Cir. 1987).7 Count Six fails to state a claim upon
which relief can be granted.
E. Prosecutorial Immunity
Pima County argues that challenges to Weiss’s
prosecutorial conduct are precluded by absolute
prosecutorial immunity, as is the decision to assign
Weiss to Plaintiff’s prosecution. “Prosecutors
performing their official prosecutorial functions are
entitled to absolute immunity against constitutional
torts.” Lacey, 693 F.3d at 912; see also Imbler v.
Pachtman, 424 U.S. 409, 431 (1976) (prosecutors
enjoy absolute immunity from civil suits for damages
under § 1983 for acts taken “in initiating a
prosecution and in presenting the State’s case”). In
addition, “[d]ecisions related to appointments and
7

It does not appear that Plaintiff is alleging a conspiracy
under 42 U.S.C. § 1985; to the extent he is, he has failed to offer
sufficient non-conclusory factual allegations showing that the
alleged conspiracy was motivated by “racial” or “otherwise
class-based, invidiously discriminatory animus.” Griffin v.
Breckenridge, 403 U.S. 88, 102 (1971).

85a
removals in a particular matter” are generally
“shielded from suit by absolute immunity.” Lacey,
693 F.3d at 930-31. However, “[d]ecisions related to
general
conditions
of
employment—including
decisions to hire, promote, transfer, and terminate”
generally do not qualify for absolute immunity. Id.
Plaintiff concedes that absolute prosecutorial
immunity would normally apply to Weiss’s alleged
failure to disclose Brady material and to Weiss’s
alleged decision to present perjured testimony;
however, Plaintiff argues that Weiss forfeited his
prosecutorial immunity by conspiring with nonimmune employees. See Lacey, 693 F.3d at 937 (a
prosecutor may forfeit prosecutorial immunity by
conspiring with non-immune employees in conduct
that is not prosecutorial in nature). The Court need
not, at this time, determine whether absolute
prosecutorial immunity would shield Weiss from
liability for his alleged misconduct. Weiss is not a
defendant in this action. Plaintiff alleges Monell
claims based upon Pima County’s own customs,
practices,
training,
supervision,
and
hiring/termination decisions. Pima County has failed
to cite authority supporting the proposition that
absolute
prosecutorial
immunity
shields
a
municipality from liability for claims alleging that
the municipality’s racially discriminatory customs or
practices caused a prosecutor to violate a defendant’s
constitutional rights, or from liability for claims
alleging that the municipality’s constitutionally
deficient training, supervision, and hiring/retention

86a
of prosecutors exhibited deliberate indifference to
criminal defendants’ constitutional rights.8
F. State v. County Officer
Defendant Pima County argues that it cannot be
held liable for Weiss’s alleged misconduct, because
Weiss acted as a state officer with respect to actions
taken in his prosecutorial capacity. This argument
assumes that Weiss acted as an official with final
policymaking authority, as Pima County could be
held liable for Weiss’s actions only if Weiss acted as a
final policymaker. See Gobel v. Maricopa Cnty., 867
F.2d 1201, 120609 (9th Cir. 1989). However,
Plaintiff’s complaint does not allege that Weiss acted
as a final policymaker. To the contrary, the
complaint premises Monell liability on Defendants’
own
policies,
practices,
customs,
training,
supervision, and hiring/termination decisions.
Accordingly, the Court need not, at this time,
address the issue of whether Weiss acted as a state
or county officer.
8

Pima County cites to Van de Kemp v. Goldstein, 555 U.S.
335 (2009), and Lacey v. Maricopa County, 693 F.3d at 929-30,
for the proposition that absolute prosecutorial immunity shields
a municipality from liability for failure to train prosecutors.
However, Van de Kemp and the cited portion of Lacey discuss §
1983 liability with respect to individual district attorneys, as
opposed to municipal liability under § 1983. In Connick v.
Thompson, the Supreme Court evaluated a claim asserting
municipal liability for failure to train prosecutors about their
duty to disclose Brady material. See generally 563 U.S. 51
(2011). Connick was decided two years after Van de Kemp, and
yet the Supreme Court did not indicate in Connick that
absolute prosecutorial immunity would operate to bar a § 1983
claim asserting municipal liability for failure to train
prosecutors.

87a
G. Heck-Bar and Compensatory Damages
In Heck, the United States held:
[I]n order to recover damages for allegedly
unconstitutional conviction or imprisonment,
or for other harm caused by actions whose
unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must prove
that the conviction or sentence has been
reversed on direct appeal, expunged by
executive order, declared invalid by a state
tribunal
authorized
to
make
such
determination, or called into question by a
federal court’s issuance of a writ of habeas
corpus.
512 U.S. at 486-87. A § 1983 damages action is Heckbarred if “a judgment in favor of the plaintiff would
necessarily imply the invalidity” of the plaintiff’s
outstanding criminal conviction or sentence. Id. at
487. However, if “the plaintiff’s action, even if
successful, will not demonstrate the invalidity of any
outstanding criminal judgment against the plaintiff,
the action should be allowed to proceed, in the
absence of some other bar to the suit.” Id.
Because Plaintiff’s 1972 convictions were vacated
in 2013, those convictions are no longer outstanding.
Accordingly, Plaintiff may challenge the 1972
convictions in a § 1983 action.9 However, Plaintiff’s
9

Defendant Pima County argues that Plaintiff’s § 1983 action
is not cognizable because Plaintiff’s 1972 convictions have not
been declared constitutionally invalid. (Doc. 6 at 7-8.)
Defendants fail to cite any authority holding that Heck requires
a conviction to be declared invalid on constitutional grounds; to

88a
action may still be Heck-barred if success on
Plaintiff’s claims would necessarily imply the
invalidity of his outstanding 2013 convictions.
In certain factual scenarios, a § 1983 plaintiff may
successfully challenge the constitutionality of
underlying events that led to an outstanding
criminal conviction without necessarily implying the
invalidity of that conviction. For example, in Lockett
v. Ericson, the Ninth Circuit held that a plaintiff
with an outstanding conviction for reckless driving
resulting from a nolo contendere plea could bring a
§ 1983 action challenging an allegedly unlawful
search that led to his arrest, because his conviction
derived from his plea, not from a verdict obtained
with allegedly illegal evidence, and thus the validity
of his conviction did not depend upon the legality of
the search. 656 F.3d 892, 895-97 (9th Cir. 2011); but
see Szajer v. City of L.A., 632 F.3d 607, 608, 612 (9th
Cir. 2011) (plaintiffs with outstanding convictions for
possession of an illegal assault weapon resulting
from no-contest pleas were Heck-barred from
pursuing a § 1983 action challenging the validity of
the undercover operation that formed the only basis
for finding probable cause for the search that led to
the discovery of the weapon). In Ove v. Gwinn, the
Ninth Circuit held that plaintiffs with outstanding
convictions for driving under the influence based on
guilty and nolo contendere pleas were not Heckbarred from challenging, in a § 1983 action, the
the contrary, Heck provides that a § 1983 action challenging a
conviction is not barred if the challenged conviction is no longer
outstanding. 512 U.S. at 487. Plaintiff’s 1972 convictions are no
longer outstanding criminal judgments; accordingly, Plaintiff
may challenge the 1972 convictions in a § 1983 action.

89a
manner in which their blood was drawn, because the
validity of their convictions did not depend upon the
legality of the blood draws. 264 F.3d 817, 821, 823
(9th Cir. 2001).
In Jackson v. Barnes, a § 1983 plaintiff sued for
violation of his Miranda rights at a trial that led to
his conviction for first-degree murder. Jackson v.
Barnes, 749 F.3d 755, 758 (9th Cir. 2014). Prior to
the filing of the § 1983 action, the conviction was
reversed and the plaintiff was re-convicted at a retrial, without the use of the illegally obtained
evidence. Id. The Ninth Circuit held that—though
the plaintiff would likely only be able to recover
minimal damages—his lawsuit was not Heck-barred,
because the illegally obtained evidence was not used
at the plaintiff’s re-trial and thus success on the
plaintiff’s claim for violation of his Miranda rights
would not demonstrate the invalidity of the
plaintiff’s outstanding conviction. Jackson, 749 F.3d
at 758, 760-61.
The Ninth Circuit in Jackson relied upon Poventud
v. City of New York, a case in which a § 1983 plaintiff
sued for the withholding of Brady material at a trial
that resulted in a first-degree murder conviction.
Poventud v. City of N.Y., 750 F.3d 121, 124 (2d Cir.
2014) (en banc). The plaintiff brought a successful
state collateral challenge to his attempted murder
conviction based on the withholding of Brady
material and, while the prosecution was considering
appeal, pled guilty to a lesser charge of attempted
robbery in exchange for dismissal of all other charges
and a stipulated sentence of time served. Poventud,
750 F.3d at 124. The Second Circuit held that Heck
did not bar the plaintiff’s § 1983 suit, because

90a
success on his claim for the withholding of Brady
material at his first trial would not invalidate his
subsequent, plea-based conviction, since that
conviction was not tainted by the earlier Brady
violation. Poventud, 750 F.3d at 136-37.
Based upon the reasoning of cases such as Lockett,
Ove, Jackson, and Poventud, it is clear that, in the
present case, Plaintiff—at a minimum—can
challenge municipal policies, practices, and/or
training,
supervision,
and
hiring/termination
decisions that caused the violation of his Brady
rights without running afoul of Heck, because his
2013 convictions were untainted by the earlier
alleged withholding of Brady material: Plaintiff
knew of the Truesdail Report at the time of his 2013
no-contest plea. See Poventud, 750 F.3d at 136-37.
The issue of whether proof of Plaintiff’s other claims
would necessarily imply the invalidity of his 2013
convictions is complicated slightly by Plaintiff’s 2013
no-contest plea. A plea of no contest is “not an
admission of factual guilt,” but merely an
authorization for a criminal court to treat a
defendant as if he were guilty.” United States v.
Nguyen, 465 F.3d 1128, 1131 (9th Cir. 2006). “A
conviction resulting from a nolo contendere plea . . .
is not by itself sufficient evidence to prove a
defendant committed the underlying crime,” and
Rule 410 of the Federal Rules of Evidence prohibits
the admission of nolo contendere pleas and the
resulting convictions “as proof that the pleader
actually committed the underlying crimes charged.”
Id. at 1131. Because Plaintiff’s 2013 no-contest plea
did not admit factual guilt, his assertion in the
present lawsuit that he was wrongfully convicted in

91a
1972 is not necessarily inconsistent with his 2013 nocontest plea.
Even if success on Plaintiff’s theories of wrongful
arrest,
wrongful
conviction,
and
wrongful
imprisonment would necessarily imply the invalidity
of his 2013 convictions, Plaintiff’s § 1983 action may
fall under an exception to Heck. In Spencer v.
Kemna, five justices of the United States Supreme
Court indicated that Heck would not bar a released
prisoner unable to pursue habeas relief from
bringing a § 1983 claim. Spencer v. Kemna, 523 U.S.
1, 19 (Souter, J., concurring) (“Heck did not hold that
a released prisoner [unable to pursue habeas relief]
is out of court on a § 1983 claim”); id. at 25 n.8
(Stevens, J., dissenting) (“Given the Court’s holding
that petitioner does not have a remedy under the
habeas statute, it is perfectly clear . . . that he may
bring an action under 42 U.S.C. § 1983). “In
following the reasoning” of the Spencer concurrence,
the Ninth Circuit has “emphasized the importance of
timely pursuit” of habeas remedies. Guerrero v.
Gates, 442 F.3d 697, 704 (9th Cir. 2003). The Ninth
Circuit has declined to find an exception to Heck
where habeas relief is unavailable to a § 1983
plaintiff as a result of the plaintiff’s own delay in
seeking such relief. Cunningham v. Gates, 312 F.3d
1148, 1153 n.3 (9th Cir. 2002); see also Guerrero, 442
F.3d at 705. However, the Ninth Circuit has found
an exception to Heck where a plaintiff is unable to
pursue habeas relief not due to his own delay in
seeking such relief but because he has been released
from incarceration. Nonnette v. Small, 316 F.3d 872,
876-77 (9th Cir. 2002) (holding that, if a remedy in
habeas is unavailable due to mootness, a plaintiff

92a
may “maintain a § 1983 action for damages
[resulting from deprivation of good-time credits],
even though success in that action would imply the
invalidity of the disciplinary proceeding that caused
revocation of his good-time credits”).
In the present case, the Court finds that Plaintiff’s
situation is more analogous to the situation of the
plaintiff in Nonnette than the plaintiffs in
Cunningham and Guerrero. Plaintiff cannot file an
application for a writ of habeas corpus under 28
U.S.C. § 2254 because he fails to meet the in-custody
requirements of the statute. His inability to file a
habeas application does not result from any delay on
his part in seeking habeas relief. When he was
convicted in 2013, he was sentenced to time served
and immediately released from custody; thus, he
never had the opportunity to seek habeas relief with
respect to his 2013 convictions. Arguably, Plaintiff’s
inability to seek habeas relief results from his own
decision to plead no contest to 28 counts of felony
murder for a sentence of time served. In 2013,
Plaintiff had already spent 42 years incarcerated for
crimes that he contends he did not commit. The
prosecution gave him an option: he could plead no
contest to 28 counts of felony murder—while
maintaining his innocence—and be immediately
released from custody, or he could remain in custody
awaiting final adjudication of his petition for postconviction relief. It is difficult to fault Plaintiff for
choosing immediate release. The Court does not find
that Plaintiff’s decision weighs against finding an
exception to Heck. Because Plaintiff is unable to
pursue habeas relief due to his release from
incarceration, rather than due to delay in seeking

93a
habeas relief, the Court finds that an exception to
Heck applies under the Ninth Circuit’s reasoning in
Nonnette and the reasoning of the Spencer
concurrence.
Because an exception to Heck applies, the Court
finds that Plaintiff may pursue § 1983 claims even if
success on the claims would necessarily imply the
invalidity of his 2013 convictions. Because Plaintiff
may challenge the validity of his 2013 convictions
and time-served sentence in this action, Defendants’
argument that Plaintiff may not seek compensatory
damages for the 42 years that he spent in prison
fails.
H. Statute of Limitations
Defendant City of Tucson alleges that Plaintiff’s
claims are barred by the statute of limitations
because they are based on conduct, policies,
practices, and customs “that are buried in the past.”
(Doc. 5 at 13.) In § 1983 actions, federal courts apply
the statute of limitations applicable to personal
injury claims in the forum state, but use federal law
to determine when a claim accrues. TwoRivers v.
Lewis, 174 F.3d 987, 991 (9th Cir. 1999). “In Arizona,
the courts apply a two-year statute of limitations to
§ 1983 claims.” Id. However, “a § 1983 cause of action
for damages attributable to an unconstitutional
conviction or sentence does not accrue until the
conviction or sentence has been invalidated.” Heck,
512 U.S. at 489-90. Plaintiff’s § 1983 claims did not
accrue until his 1972 convictions were vacated on
April 2, 2013. Plaintiff filed this lawsuit within two
years of the date the convictions were vacated.

94a
Accordingly, the claims are not barred by the statute
of limitations.
I. Collateral Estoppel
Defendant City of Tucson argues that the doctrine
of collateral estoppel precludes Plaintiff from
relitigating issues decided against him in relation to
his prior criminal proceedings. Defendant Pima
County joins in this argument. (Doc. 25 at 7.)
Under the doctrine of collateral estoppel, “once a
court has decided an issue of fact or law necessary to
its judgment, that decision may preclude relitigation
of the issue in a suit on a different cause of action
involving a party to the first case.” Allen v. McCurry,
449 U.S. 90, 94 (1980). The doctrine reduces
unnecessary
litigation,
fosters
reliance
on
adjudication, and—because federal courts generally
accord preclusive effect to issues decided by state
courts—promotes comity between state and federal
courts. Id. at 95-96. The doctrine is generally
applicable to § 1983 actions. See Allen, 449 U.S. at
96-97, 10405. However, collateral estoppel is not
available to resolve issues in a subsequent case if the
issues actually litigated in the earlier case were
different. Bates v. Union Oil Co. of Cal., 944 F.2d
647, 651 (9th Cir. 1991); see also Eureka Fed. Sav. &
Loan Ass’n v. Am. Cas. Co., 873 F.2d 229, 233 (9th
Cir. 1989) (“Collateral estoppel is inappropriate if
there is any doubt as to whether an issue was
actually litigated in a prior proceeding.”). Further, it
is inappropriate to apply collateral estoppel when its
effect would be unfair. Eureka Fed. Sav. & Loan
Ass’n, 873 F.2d at 234.

95a
Plaintiff argues that his 1972 convictions and
sentences have been vacated and thus have no
preclusive effect. Defendants have failed to
identify— and the Court has been unable to locate—
authority holding that rulings made during appellate
and collateral attacks on a criminal judgment
continue to have collateral estoppel effect in a § 1983
action after the criminal judgment is vacated.
Application of collateral estoppel under the unique
circumstances of this case may be unfair. Further,
even if collateral estoppel does bar Plaintiff from relitigating issues decided during his appellate and
collateral attacks on his 1972 convictions,
Defendants have not shown that all issues
underlying Plaintiff’s claims in this action are
identical to those decided previously.
J. Punitive Damages: Count Seven
Plaintiff’s punitive damages claim must be
dismissed because municipalities are not liable for
punitive damages under 42 U.S.C. § 1983. City of
Newport v. Fact Concerts, Inc., 453 U.S. 247, 271
(1981) (holding that municipalities are immune from
punitive damages under 42 U.S.C. § 1983).
K. Leave to Amend
Leave to amend should be “freely given where
justice so requires,” unless the deficiencies of a
pleading “could not possibly be cured by the
allegation of other facts.” Lacey, 693 F.3d at 939
(internal quotations omitted). The deficiencies of
Plaintiff’s punitive damages claim cannot possibly be
cured by the allegation of other facts, and thus the
Court will dismiss Count Seven of Plaintiff’s First

96a
Amended Complaint with prejudice. However,
Plaintiff may be able to cure the deficiencies of
Counts One through Four and Count Six of his First
Amended Complaint by alleging sufficiently specific,
non-conclusory factual content. Thus, the Court will
dismiss Counts One through Four and Count Six
with leave to amend.
IT IS ORDERED that Plaintiff’s Motion for Leave
to File Supplemental Response (Doc. 31) is granted.
Plaintiff’s Supplemental Response (Doc. 30) and
Defendants’ Replies to the Supplemental Response
(Docs. 32, 34) will be considered properly filed.
IT IS FURTHER ORDERED that Defendants’
Motions to Dismiss (Docs. 5, 6) are granted in part
and denied in part as follows:
4. Counts One through Four and Count Six of
Plaintiff’s First Amended Complaint are
dismissed with leave to amend.
5. Count Seven of Plaintiff’s First Amended
Complaint is dismissed with prejudice.
6. Defendant Pima County’s Motion to Dismiss
Count Five of Plaintiff’s First Amended
Complaint is denied.
IT IS FURTHER ORDERED that Plaintiff may
file an amended complaint within twenty (20) days
of the date this Order is issued.
Dated this 8th day of February, 2016.

97a
/s/ R. Márquez
Honorable Rosemary Márquez
United States District Judge

98a
APPENDIX F
_________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_________
No. 17-16980
_________
LOUIS TAYLOR, a single man,
Plaintiff-Appellee,
v.
COUNTY OF PIMA, a body politic; CITY OF TUCSON,
a body politic,
Defendants-Appellants.
_________
D.C. No. 4:15-cv-00152-RM
_________
ORDER
_________
Filed: August 14, 2019
_________
Before: Mary M. Schroeder, Eugene E. Siler,*
and Susan P. Graber, Circuit Judges.
_________
Order
_________
*

The Honorable Eugene E. Siler, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

99a
ORDER
Judges Siler and Graber voted to deny the petitions
for panel rehearing. Judge Schroeder voted to grant
the petitions for panel rehearing. Judge Graber voted
to deny the petitions for rehearing en banc, and
Judge Siler so recommended. Judge Schroeder
recommended granting the petitions for rehearing en
banc.
The full court has been advised of the petitions for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to
receive a majority of votes of non-recused active
judges in favor of en banc consideration. Fed. R. App.
P. 35(f).
Judge Hurwitz did not participate
deliberations or vote in this case.

in

the

The petitions for panel rehearing and the petitions
for rehearing en banc are DENIED.

